<html>
<title> - EPA'S 2015 OZONE STANDARD:. CONCERNS OVER SCIENCE AND IMPLEMENTATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                       EPA'S 2015 OZONE STANDARD:
                CONCERNS OVER SCIENCE AND IMPLEMENTATION

=======================================================================

                                 HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            October 22, 2015

                               __________

                           Serial No. 114-44

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
        Available via the World Wide Web: http://science.house.gov
        
        
                              ____________
                              
                              
                      U.S. GOVERNMENT PUBLISHING OFFICE
97-763PDF                     WASHINGTON : 2017                      
_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6c1d6c9e6c5d3d5d2cec3cad688c5c9cb88">[email&#160;protected]</a>  
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                            
                            C O N T E N T S

                            October 22, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    17
    Written Statement............................................    18

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Enviorment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    20
    Written Statement............................................    22

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    23
    Written Statement............................................    25

                               Witnesses:

The Honorable Jeffrey Holmstead, Partner, Bracewell & Giuliani 
  LLP
    Oral Statement...............................................    28
    Written Statement............................................    30

Mr. Seyed Sadredin, Executive Director and Air Pollution Control 
  Officer, San Joaquin Valley Air Pollution Control District
    Oral Statement...............................................    38
    Written Statement............................................    40

Dr. Elena Craft, Senior Health Scientist, Environmental Defense 
  Fund
    Oral Statement...............................................    56
    Written Statement............................................    58

Dr. Michael Honeycutt, Director, Texas Commission on 
  Environmental Quality, Toxicology Division
    Oral Statement...............................................    71
    Written Statement............................................    74
Discussion.......................................................    82

             Appendix I: Answers to Post-Hearing Questions

The Honorable Jeffrey Holmstead, Partner, Bracewell & Giuliani 
  LLP............................................................   108

Dr. Elena Craft, Senior Health Scientist, Environmental Defense 
  Fund...........................................................   111

Dr. Michael Honeycutt, Director, Texas Commission on 
  Environmental Quality, Toxicology Division.....................   120

            Appendix II: Additional Material for the Record

Documents submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   204

Report submitted by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................   231

Documents submitted by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Enviorment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   256

Document submitted by Representative Don Beyer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   260

Documents submitted by Representative Bill Johnson, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   262

Documents submitted by Representative Katherine Clark, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   265

Documents submitted by Representative Zoe Lofgren, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   273

Documents submitted by Representative Barry Loudermilk, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   281

Documents submitted by Representative Ed Perlmutter, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   284

Documents submitted by Representative Darin LaHood, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   322

Documents submitted by Representative Gary Palmer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   328

Statement submitted by Representative Elizabeth H. Esty, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   347

 
                       EPA'S 2015 OZONE STANDARD:.
                CONCERNS OVER SCIENCE AND IMPLEMENTATION

                              ----------                              


                       THURSDAY, OCTOBER 22, 2015

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:10 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Welcome to today's hearing entitled ``EPA's 2015 Ozone 
Standard: Concerns Over Science and Implementation.''
    I'll recognize myself for an opening statement and then the 
Ranking Member.
    Today's hearing is on the Environmental Protection Agency's 
2015 National Ambient Air Quality Standards for ozone.
    The EPA is required to review the ozone standard every five 
years, but the agency is not required to set new standards. The 
2008 standard of 75 parts per billion is just now being 
implemented, and many states have not had the opportunity to 
meet the 2008 standard since guidance from the EPA for this 
standard was not made public until February. However, earlier 
this month, the EPA further reduced the standard to 70 parts 
per billion.
    At our previous Committee hearings on the EPA's ozone rule, 
witnesses testified that further reduction of the standard is 
premature and unnecessary due to the lack of any sound science, 
and the negative impact it will have on our economy. 
Unfortunately, the EPA did not address the serious concerns 
raised by these witnesses. Our hearing today will review the 
impact of this final rule.
    According to EPA's own website--and I think we have a chart 
to show.
    [Slide.]
    Chairman Smith. There it is. Since 1980, ozone levels have 
decreased by 33 percent. The air we breathe is significantly 
cleaner and will continue to improve thanks to new 
technologies. However, many of the technologies that the EPA 
forces states to use either do not currently exist or will be 
overly expensive.
    At the reduced ozone standard, over 60 percent of the costs 
of the program are based on technology that does not currently 
exist. The EPA assumes this technology will somehow be 
developed to implement their stringent regulations. And these 
proposed standards are impossible to meet in some places where 
the ozone level that occurs naturally would be above the 
standard set by the EPA. Many of these communities would be 
responsible for ozone that they do not have the ability to 
control. Wind-blown ozone from countries like China and Mexico 
further complicate the ability of the U.S. to meet the existing 
ozone standards.
    Ozone scientists Dr. Allen Lefohn and Dr. Owen Cooper 
raised concerns that ``the air transport of urban pollution to 
rural areas is important for nonattainment considerations.''
    The EPA has failed to adequately consider these issues. 
This new ozone rule could cause many areas throughout the 
United States to be out of compliance with the Clean Air Act 
through no fault of their own.
    A nonattainment designation under the Clean Air Act has 
serious consequences. It could cause new employers to not move 
into the state. Businesses would be forced to deal with 
additional burdensome permitting and compliance obligations, 
which slow expansion and economic development. Ultimately, good 
jobs will be lost in these areas.
    I am also concerned that the EPA's justification for this 
rule is not based on good science. In August, I sent both the 
EPA and the Office of Management and Budget (OMB) letters in 
which I raised concerns about the proposed rule's overreliance 
on one study, parts of which contradict previous peer-reviewed 
studies. My letter also questioned if EPA and OMB properly 
addressed the issue of background ozone that witnesses raised 
in previous Science Committee testimony when EPA determined the 
final standard. I am concerned that neither agency adequately 
considered background ozone or the overreliance on one study.
    Unfortunately, neither agency has provided the information 
I requested. While EPA claims to base its regulations on the 
best available science, unless the EPA can prove otherwise, it 
appears that their claims are nothing more than political 
rhetoric.
    Good science should dictate policy. However, it appears 
that the EPA conveniently cherry-picks the science that 
supports its extreme agenda. This is not sound science; it is 
science fiction. Furthermore, the EPA has regularly chosen to 
disregard inconvenient scientific conclusions and muzzle 
dissenting voices.
    Today's witnesses will testify on how this proposed rule 
will impact American small businesses and job creation.
    [The prepared statement of Chairman Smith follows:]

        Prepared Statement of Committee Chairman Lamar S. Smith

    Today's hearing is on the Environmental Protection Agency's (EPA's) 
2015 National Ambient Air Quality Standards for ozone.
    The EPA is required to review the ozone standard every five years, 
but the agency is not required to set new standards.
    The 2008 standard of 75 parts per billion is just now being 
implemented. And many states have not had the opportunity to meet the 
2008 standard since guidance from the EPA for this standard was not 
made public until February. However, earlier this month, the EPA 
further reduced the standard to70 parts per billion.
    At our previous Committee hearings on the EPA's ozone rule, 
witnesses testified that further reduction of the standard is premature 
and unnecessary due to the lack of any sound science and the negative 
impact it will have on our economy. Unfortunately, the EPA did not 
address the serious concerns raised by these witnesses.
    Our hearing today will review the impact of this final rule. 
According to EPA's own website, since 1980 ozone levels have decreased 
by 33 percent. The air we breathe is significantly cleaner and will 
continue to improve thanks to new technologies. However, many of the 
technologies that the EPA forces states to use either do not currently 
exist or will be overly expensive.
    At the reduced ozone standard, over 60 percent of the costs of the 
program are based on technology that does not currently exist. The EPA 
assumes this technology will somehow be developed to implement their 
stringent regulations.
    And these proposed standards are impossible to meet in some places 
where the ozone level that occurs naturally would be above the standard 
set by the EPA. Many of these communities would be responsible for 
ozone that they do not have the ability to control.
    Wind-blown ozone from countries like China and Mexico further 
complicate the ability of the U.S. to meet the existing ozone 
standards.
    Ozone Scientists Dr. Allen Lefohn and Dr. Owen Cooper raised 
concerns that, ``[T]he [air] transport of urban pollution to rural 
areas is important for nonattainment considerations.''
    The EPA has failed to adequately consider these issues. This new 
ozone rule could cause many areas throughout the United States to be 
out of compliance with the Clean Air Act through no fault of their own.
    A non-attainment designation under the Clean Air Act has serious 
consequences. It could cause new employers to not move into the state. 
Businesses would be forced to deal with additional burdensome 
permitting and compliance obligations, which slow expansion and 
economic development. Ultimately, good jobs will be lost in these 
areas. I am also concerned that the EPA's justification for this rule 
is not based on good science.
    In August, I sent both the EPA and the Office of Management and 
Budget (OMB) letters in which I raised concerns about the proposed 
rule's over-reliance on one study, parts of which contradict previous 
peer-reviewed studies.
    My letter also questioned if EPA and OMB properly addressed the 
issue of background ozone that witnesses raised in previous Science 
Committee testimony when EPA determined the final standard. I am 
concerned that neither agency adequately considered background ozone or 
the over-reliance on one study. Unfortunately, neither agency has 
provided the information I requested.
    While EPA claims to base its regulations on the best available 
science, unless the EPA can prove otherwise it appears that their 
claims are nothing more than political rhetoric.
    Good science should dictate policy. However, it appears that the 
EPA conveniently cherry-picks the science that supports its extreme 
agenda. This is not sound science; it is science fiction. Furthermore, 
the EPA has regularly chosen to disregard inconvenient scientific 
conclusions and muzzle dissenting voices.
    Today's witnesses will testify on how this proposed rule will 
impact American small businesses and job creation.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. That concludes my opening statement, and 
the gentlewoman from Texas, Ms. Eddie Bernice Johnson, is 
recognized for hers.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. 
And I must say that at the end of my statement, I have to 
depart to go to another committee where we are marking up for 
the first time in some years a Transportation Committee bill--a 
transportation bill.
    But I want to thank you for holding this hearing, and say 
good morning and welcome to all of our witnesses. I know that 
the Chairman was very cooperative in postponing this hearing to 
try to accommodate our witness, who suffered a medical 
emergency. And while he's still recovering and unable to 
travel, I'm very pleased to welcome Dr. Elena Craft, who will 
be providing testimony this morning.
    There really is no question that reducing ozone levels from 
75 parts per billion to 70 parts per billion will have positive 
human health and economic benefits throughout the country. 
While the new rule is not as ambiguous as health professionals 
had hoped for, it will still have--ambitious, I mean, as the 
health professionals hoped, it will still have real and 
meaningful positive impact on the health of all Americans.
    Some will likely argue that implementing a lower ozone 
standard would kill jobs and the economy. We hear it all the 
time. Some of my colleagues may also suggest that we wait and 
not, as they say, shift the goalposts with new rules because 
ozone levels have dropped by 33 percent--you just saw that 
chart--since 1980. In short, they will use our current success 
as an excuse to stop trying to do better. They will also 
attempt to raise doubts about the scientific evidence 
justifying the new standard and will exaggerate the costs of 
its implementation.
    These kinds of tactics have been used before. Back in the 
1960s, the tobacco industry devised a strategy to counter a 
growing body of scientific and medical evidence that tobacco 
products unquestionably caused harm. Publicly available tobacco 
industry documents lay out a detailed strategy that reads in 
part ``doubt is our product since it is the best means of 
competing with the body of fact that exist in the minds of the 
general public. It is also the means of establishing a 
controversy.''
    Thus, in any form they could, tobacco industry scientists 
attempted to raise doubts about the science, doubts about the 
scientific models used by government scientists that 
highlighted the negative health effects of tobacco and 
secondhand smoke. Tobacco executives also emphasized concerns 
about the economic impact of proposed regulations on the 
industry and the economy at large.
    This strategy served the tobacco industry well, postponing 
effective action for years, but the American public paid the 
price in a lower quality of life, increased medical costs, and 
lost earnings and shortened lives. This same strategy has been 
mimicked by the oil and gas industry and its attempt to 
question the scientific evidence pointing to the climate 
change.
    Unfortunately, the Committee has become a favorite forum 
for rolling out these tactics. We will hear today for the 
fourth time in five years from you Dr. Michael Honeycutt from 
my home State about--from the office of environmental 
regulations, the Texas Commission on Environmental Quality 
(TCEQ) which appears to be employing tactics that I've just 
described.
    Instead of following the science supporting a reduction in 
the levels of ozone pollution, TCEQ, along with the industry, 
has waged a public media campaign that is not fooling Dallas, a 
conservative city--but people in Dallas don't believe you--
geared toward raising doubts about the science and alleging 
dire economic consequences of implementing these new health-
based standards.
    Recent news stories have questioned why the agency spent $2 
million hiring a scientific organization that previously did 
substantive work for the tobacco industry to help TCEQ raise 
doubts about the EPA's ozone rule. Americans are not fooled by 
these tactics anymore.
    Time and time again, the evidence shows that, on balance, 
jobs are created and the economy expands following the passage 
of major environmental reforms. Stricter pollution limits force 
us to innovate and create new technologies. With a fair 
national regulatory system that protects the public, companies 
do well by doing good.
    As it relates to this new ozone rule, EPA estimates the 
benefits to be more than double the cost, that is, benefits of 
2.9 to $5.9 billion annually compared to the cost of 1.4 
billion. Such a return on investment should prove the obvious: 
that when the environment is healthy, the economy is healthy, 
too.
    For millions of Americans who are suffering from 
respiratory illnesses such as asthma, ozone pollution has a 
real and destructive effect on them and their families. 
Hospital records show it and prove it.
    As someone who worked in the public health field before I 
entered politics, I'm very sensitive to the impacts poor air 
quality can have on the health of individuals, especially the 
young, the infirm, and the poor. Unfortunately, those of us 
from the Dallas-Fort Worth region are very familiar with the 
negative effects of ozone causing smog and are accustomed to 
seeing health alerts warning us that the air outside is too 
polluted for us to breathe safely.
    I am attaching to my statement a report compiled by the 
minority staff that includes excerpts from some 430,000 written 
comments on the ozone rule by health professionals and others 
supportive of EPA's actions to reduce ozone pollution.
    Mr. Chairman, a strong economy and a healthy environment 
are not mutually exclusive. We can have both, and we should 
strive to continue to improve the environment and the air we 
breathe. I believe EPA's new ozone regulations will help take 
us to the right direction.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Ms. Johnson of Texas follows:]

             Prepared Statement of Committee Ranking Member
                         Eddie Bernice Johnson

    Thank you, Mr. Chairman. Good morning and welcome to our witnesses. 
First, I'd like to thank the Chairman for agreeing to postpone this 
hearing to try and accommodate our witness who suffered a medical 
emergency. Unfortunately, Dr. Mark Mitchell is still not well enough to 
travel, but I appreciate the consideration showed by the Chairman.
    Now, as someone who worked in the public health field before I 
entered politics, I am very sensitive to the impact poor air quality 
can have on the health of individuals, especially the young, the 
infirm, and the poor. Unfortunately, those of us from the Dallas-Fort 
Worth region are very familiar with the negative effects of smog and 
are accustomed to seeing health alerts warning us that the air outside 
is too polluted for us to breathe safely. This year, Dallas has already 
experienced 32 days where ozone levels exceeded 75 parts-per-billion 
for more than 8 hours.
    For the millions suffering from respiratory diseases, including the 
26 million Americans with asthma, which impacts 10-percent of all 
children, ozone pollution has a real and destructive effect on them and 
their families. It also negatively impacts the entire economy, 
resulting in both high healthcare costs and significant lost economic 
productivity. Reducing ozone levels from 75 parts per billion to 70 
parts per billion will have positive human health and economic impacts 
throughout the country.
    And while those of my colleagues and the industries who are opposed 
to virtually all environmental regulations often forget this point, the 
Clean Air Act requires that the ozone standard be based on science 
alone. It explicitly prohibits the EPA from considering economic costs 
when setting the standard, and rightfully puts the health and well-
being of Americans first. The new rule is not as ambitious as health 
professionals had hoped for, but it will still have a real and 
meaningful positive impact on the health of all Americans. The 
scientific evidence supporting the benefits of reduced levels of ozone 
is clear, consistent, and growing.
    Some will likely argue that implementing a lower ozone standard 
will kill jobs and the economy. Some of my colleagues may also suggest 
that we wait, and not, as they say, ``shift the goal posts'' with this 
new rule because ozone levels have dropped by 33 percent since 1980. In 
short, they will use our current success as an excuse to stop trying to 
do better. They will also attempt to raise doubts about the scientific 
evidence justifying the new standard and will exaggerate the costs of 
its implementation.
    These kinds of tactics have been used before. Back in the 1960's, 
the tobacco industry devised a strategy to counter a growing body of 
scientific and medical evidence that tobacco products unquestionably 
caused harm. Publically available tobacco industry documents lay out a 
detailed strategy that reads in part:
      ``Doubt is our product since it is the best means of competing 
with the ``body of fact'' that exists in the mind of the general 
public. It is also the means of establishing a controversy.''
    Thus, in any forum they could, tobacco industry scientists 
attempted to raise doubts about the science, doubts about the medical 
harm from cigarettes, and doubts about the scientific models used by 
government scientists that highlighted the negative health effects of 
tobacco and second-hand smoke. In addition, tobacco industry executives 
emphasized concerns about the economic impact of proposed tobacco 
regulations on their industry and the economy at large.
    This strategy served the tobacco industry well, postponing 
effective action for years. The profits enabled by these public 
relations-based attacks on science went to the companies, but the 
American public paid the price in a lower quality of life, increased 
medical costs, lost earnings, and shortened lives. This same strategy 
has been mimicked by the oil and gas industry in its attempt to 
question the scientific evidence pointing to climate change. 
Unfortunately, this Committee has become a favorite forum for rolling 
out these tactics during consideration of federal regulation of harmful 
chemicals that harm the environment and endanger the public's health.
    We will hear today, for the fourth time in five years, from Dr. 
Michael Honeycutt, from my home state's office of environmental 
regulation, the Texas Commission on Environmental Quality or T-C-E-Q; 
which appears to be employing the tactics that I've just described. 
Instead of following the science supporting a reduction in the levels 
of ozone pollution, TCEQ along with industry has waged a public media 
campaign geared to raising doubts about the science and alleging dire 
economic consequences of implementing these new health based standards. 
Recent news stories have questioned why the agency spent nearly $2 
million hiring a scientific organization that previously did 
substantive work for the tobacco industry to help TCEQ raise doubts 
about the EPA's ozone rule. As a Texas resident, I have questions about 
why my tax dollars would be used that way too. I hope that in her 
testimony Dr. Elena Craft from the Austin office of the Environmental 
Defense Fund can help describe the body of scientific data on which the 
new ozone rule is based and also explain the criticisms of both TCEQ 
and the tactics used by industry to oppose the new ozone rule.
    Americans are not fooled by these tactics any more. Time and again, 
the evidence shows that on balance, jobs are created and the economy 
expands following the passage of major environmental reforms. Stricter 
pollutions limits force innovation and create new technologies. With a 
fair national regulatory system that protects the public, companies can 
do well by doing good. As it relates to this new ozone rule, EPA 
estimates its benefits to be more than double the costs--that is, 
benefits of $2.9 to $5.9 billion annually compared to costs of $1.4 
billion. Such a return on investment should prove the obvious: that 
when the environment is healthy, the economy is healthy too.
    The American Heart Association, American Lung Association, American 
Medical Association, and many other public health organizations have 
all supported lowering the ozone standard to 60 parts-per-billion, 
which they argue would prevent up to 7,900 premature deaths annually, 
1.8 million asthma attacks in children and 1.9 million missed school 
days nationwide. But they believe any lowering of the ozone standard is 
a good first step. The community of medical and public health 
professionals does not believe there is any doubt that reducing ozone 
levels is a necessary step to help better protect the public's health 
from the real effects of ozone pollution.
    I am attaching to my statement a short compilation that includes a 
small segment of the 430,000 written comments on the ozone rule by 
health professionals and others supportive of the EPA's efforts to do 
their job and protect the environment and the public's health.
    Mr. Chairman, a strong economy and a healthy environment are not 
mutually exclusive. We can have both, and we should strive to continue 
to improve the environment and the air we breathe. I believe EPA's new 
ozone regulations will help take us in the right direction.
    Thank you, Mr. Chairman, and I yield back.

    Chairman Smith. Thank you, Ms. Johnson.
    And the gentleman from Oklahoma, Mr. Bridenstine, the 
Chairman of the Environment Subcommittee, is recognized for an 
opening statement.
    Mr. Bridenstine. Thank you so much, Mr. Chairman.
    To remind folks, today's hearing focuses on the EPA's final 
rule announced earlier this month to lower the National Ambient 
Air Quality Standards for ozone to 70 parts per billion down 
from the current standard of 75 parts per billion. Nothing in 
today's hearing is regarding tobacco necessarily, as far as I 
know.
    This hearing comes at a critical time as we must carefully 
review the science, impact, and achievability of this final 
regulation, a regulation with heavy compliance costs but 
questionable environmental benefits.
    Across the country, ozone levels and emissions for volatile 
organic compounds have been reduced significantly over the past 
few decades. My home State of Oklahoma is among those 
constantly working to improve air quality. Despite this, it is 
concerning that the EPA is proposing to tighten the standard, 
and I will remind my colleagues that the existing standard set 
in 2008 has yet to be fully implemented, and the guidance for 
State Implementation Plans was only released this past February 
by the EPA. States must be given a chance to comply with the 
existing standard before being imposed another onerous set of 
standards that are not achievable.
    This year, this committee has had several hearings to 
examine this complicated and massive regulation. Here are some 
of the important facts that we have learned from these 
hearings: Number one, just one study consisting of 31 
participants is being used as the main scientific justification 
of the costliest regulation in the history of the country 
according to Dr. Allen Lefohn, a leader in ozone research.
    Number two, witnesses testified that natural background 
ozone contributes a significant amount to the observed total 
ozone concentrations, and with this proposed standard, 
background or natural ozone may become the main reason areas 
across the United States exceed the standard. Further, there 
are even many national parks in the West which regularly will 
exceed the new standard based on natural ozone.
    Contributions from wildfires to the ozone level are 
considered a part of background. Tightening the existing ozone 
standards may cause even more unintentional fires of greater 
intensity as the use of prescribed controlled fires may be 
limited. This has serious implications, especially to rural and 
remote areas.
    While EPA claims that there are mechanisms to deal with 
background ozone, EPA has yet to provide details. This is 
especially true regarding implementation of its Exceptional 
Event Rule demonstrations. According to testimony of Ms. Cara 
Keslar from Wyoming's Department of Environmental Quality, 
``Wyoming has submitted five stratospheric intrusion 
demonstrations.'' They submitted five. ``One demonstration has 
been concurred with, and four have yet to be even acted on by 
the EPA.'' This is an unacceptable track record, and it is 
imposing costs on people that can't do anything about the 
background ozone level.
    Number five, rural areas will be hit especially hard by the 
Clean Air Act's transportation conformity requirements, which 
could mean withholding of federal highway funds if an area is 
in nonattainment. Again, this is bureaucratic bullying by the 
federal government against the states, and it needs to stop.
    According to the Oklahoma Department of Transportation, 
``rural areas do not have the resources to achieve sufficient 
reductions of pollutants. The proposed action would be 
detrimental to social and economic development for rural areas 
across the State of Oklahoma.''
    Beyond these concerns, it remains troubling to me that 
those who will bear this regulation's compliance costs may also 
suffer a decline in their health status. Not surprisingly, the 
EPA did not include the premature deaths caused by the loss of 
disposable income when considering the true impact of this 
standard.
    Furthermore, millions of senior citizens living on fixed 
incomes and low-income Americans may be forced to choose 
between medications, paying for heat, or paying for their food. 
Moreover, other existing and proposed EPA regulations such as 
the proposed Clean Power Plan will further exacerbate the 
negative economic impact.
    This hearing is critical because Congress has the 
obligation to ensure the EPA adheres to the intent of the Clean 
Air Act, that the science behind any rule is sound, and that 
the totality of the impact of any rule is taken into account. 
We need to understand the totality of the impact.
    Before I yield back, I would like to submit a few documents 
for the record. The first is a group of letters from state and 
local officials opposing the rule.
    The next is a map showing that nearly the entire State of 
Oklahoma, even some of the more rural areas, will be in 
nonattainment.
    This would be devastating to my state, which is already 
working very hard on its own, and has been successful, as a 
matter of fact, to reduce ozone.
    I want to thank each of the witnesses for coming this 
morning, and I look forward to hearing your testimony.
    I yield back the balance of my time, Mr. Chairman.
    [The prepared statement of Mr. Bridenstine follows:]

Prepared Statement of Environment Subcommittee Chairman Jim Bridenstine

    Today's hearing focuses on the Environmental Protection Agency's 
final rule, announced earlier this month, to lower National Ambient Air 
Quality Standards for ozone to 70 parts per billion, down from the 
current standard of 75 ppb.
    This hearing comes at a critical time as we must carefully review 
the science, impact and achievability of this final regulation, a 
regulation with heavy compliance costs but questionable environmental 
benefits.
    Across the country, ozone levels and emissions for volatile organic 
compounds have been reduced significantly over the past few decades. My 
home state of Oklahoma is among those constantly working to improve air 
quality.
    Despite this, it is concerning that the EPA is proposing to tighten 
the standard, especially since the existing standard, set in 2008, has 
yet to be fully implemented--and I will remind my colleagues that this 
is due to the fact that the guidance for state implementation plans was 
only released this past February by the EPA. States must be given a 
chance to comply with the existing standard before being imposed 
another onerous set of standards that are not achievable.
    This year, this Committee has held several hearings to examine this 
complicated and massive regulation. Here are some important facts that 
we have learned from these hearings:

    1.  Just one study consisting of 31 participants is being used as 
the scientific justification of the costliest regulation in the history 
of this country, according to Dr. Allen Lefohn, a leader in 
environmental research.

    2.  Witnesses testified that background ozone contributes a 
significant amount to the observed total ozone concentrations, and with 
this proposed standard, background or natural ozone may become the main 
reason certain areas across the U.S. exceed the standard. Further, 
there are many national parks in the west which regularly exceed the 
new standard.
    3.  Contributions from wildfires to the ozone level are considered 
a part of background. Tightening the existing ozone standards may cause 
more unintentional fires of greater intensity as the use of prescribed, 
controlled fires may be limited. This has serious implications, 
especially to rural and remote areas.
    4.  While EPA claims that there are mechanisms to deal with 
background ozone, EPA has yet to provide details. This is especially 
true regarding implementation of its Exceptional Event Rule 
Demonstrations. According to the testimony of Ms. Kara Keslar from 
Wyoming's Department of Environmental Quality:

      ``Wyoming has submitted five stratospheric intrusion 
demonstrations. One demonstration has been concurred with and four have 
not yet been acted on by EPA.'' This is an unacceptable track record.

    5.  Rural areas will be hit especially hard by the Clean Air Act's 
transportation conformity requirements, which could mean the 
withholding of federal highway funds if an area is in non-attainment. 
According to the Oklahoma's Department of Transportation, ``Rural areas 
do not have the resources to achieve sufficient reductions of 
pollutants. The proposed action would be detrimental to social and 
economic development for rural areas across the state of Oklahoma.''

    Beyond these concerns, it remains troubling to me that those who 
will bear this regulation's compliance costs may also suffer a decline 
in their health status. Not surprisingly, the EPA did not include the 
premature deaths caused by the loss of disposable income when 
considering the true impact of this standard.
    Furthermore, millions of senior citizens living on fixed incomes 
and low-income Americans may be forced to choose between medications, 
paying for heat, or for their food. Moreover, other existing and 
proposed EPA regulations such as the proposed Clean Power Plan will 
further exacerbate the negative economic impact.
    This hearing is critical because Congress has the obligation to 
ensure the EPA adheres to the intent of the Clean Air Act, that the 
science behind any rule is sound, and that the totality of the impact 
of any rule is taken into account.
    I want to thank each of the witnesses for coming this afternoon and 
I look forward to hearing their testimony. I yield back the balance of 
my time.

    Chairman Smith. Thank you, Mr. Bridenstine.
    And the gentlewoman from Oregon, Ms. Bonamici, the Ranking 
Member of the Environment Subcommittee, is recognized for an 
opening statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman. And thank 
you to our witnesses for being here today to discuss the 
Environmental Protection Agency's final National Ambient Air 
Quality Standards for ozone.
    Last week, the EPA took a step in the right direction to 
maintain clean air and healthy environment for our country. The 
new standard of 70 parts per billion is not as ambitious as 
some might have hoped for, but it will have a real and 
meaningful effect on the health of all Americans.
    At a hearing earlier this year on the topic of ozone, one 
of the witnesses before the Committee, Dr. Mary Rice, stated 
that there is clear, consistent, and conclusive scientific 
evidence in support of a standard lower than the current level 
of 75 parts per billion. She also indicated that the scientific 
evidence available seven years ago has been supplemented by an 
even greater understanding of the health effects of ozone 
exposure.
    We must not overlook this point. The Clean Air Act, as 
passed by Congress, requires that the ozone standard be based 
on science and health. It prohibits the EPA from considering 
costs when setting the standard, and it rightfully puts the 
health and well-being of Americans first.
    Despite this fact, we will hear today that implementing a 
lower ozone standard will have devastating consequences to the 
economy, but has been shown time and time again, the evidence 
shows that, on balance, jobs are created and the economy 
expands following the passage of major environmental reforms.
    Regarding this rule, the EPA estimates the benefits to be 
more than double the costs, that is, benefits of 2.9 to 5.9 
billion annually compared to costs of 1.4 billion. Such a 
return on investment should prove the obvious: that when the 
environment is healthy, the economy is healthy.
    We are already seeing positive results from strong action 
to protect the air. Since 1980, ozone levels have dropped by 33 
percent. Now is not the time to rest on our accomplishments. 
The only way to ensure we maintain our progress is to keep 
moving forward.
    It's important to point out that the Bush Administration 
ignored the experts on EPA's Clean Air Scientific Advisory 
Committee in 2008 and implemented a standard they viewed as not 
sufficiently protective of public health. Thankfully, the Obama 
Administration is basing its decision on the science, not 
industry interests.
    Now, let me be clear. In my home State of Oregon, we 
recognize the challenges associated with implementing a more 
stringent standard. And I'm glad Mr. Bridenstine raised this 
point. Wildfires and long-range shifting of ozone from Asia 
will need to be addressed if we're to achieve a lower standard. 
That being said, comments the State of Oregon submitted support 
the EPA's proposal. Specifically, a letter from David Collier, 
the Air Quality Manager at the Oregon Department of 
Environmental Quality, on EPA's proposed rule states that 
``Oregon welcomes the EPA's proposal to lower the ozone NAAQS 
based on advice provided by the Clean Air Scientific Advisory 
Committee in order to provide the adequate protection to human 
health and welfare.''
    In its comments to the EPA, Oregon also recommended the 
development of guidance and tools to address exceptional events 
like wildfires and the long-range transport of ozone. 
Thankfully, the EPA is listening to the needs of states and has 
expressed in the final rule its commitment to addressing the 
implementation challenges faced by Western States.
    I want to point out that the EPA has concluded that most 
U.S. counties will be able to reach the new standard without 
imposing emission controls beyond those already in place or 
proposed. Specifically, the EPA has estimated that federal 
regulations like the Fuel Economy Standards, the Interstate 
Transport Rule, and the Clean Power Plan will reduce emissions 
to such a degree that only 14 of the 213 counties expected to 
exceed the 70 parts per billion are likely to find themselves 
in nonattainment by 2025.
    Mr. Chairman, although significant progress has been made 
in the past 40 years, it is our job and responsibility to build 
on this legacy and e sure that we continue to improve the 
quality of our air. A strong economy and a healthy environment 
are not mutually exclusive. We can have both, and EPA's rule 
will continue to take us in the right direction.
    Thank you, Mr. Chairman, and thank you again to our 
witnesses for being here today, and I yield back the balance of 
my time.
    [The prepared statement of Ms. Bonamici follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Ms. Bonamici.
    And let me introduce our witnesses. Our first witness today 
is Mr. Jeff Holmstead, a Partner at Bracewell & Giuliani, LLP. 
Mr. Holmstead is one of the country's leading air quality 
lawyers and heads the Environmental Strategies Group at 
Bracewell & Giuliani. He previously served as the Assistant 
Administrator at the EPA for the Office of Air and Radiation. 
He also served on the White House staff as Associate Counsel to 
former President George H.W. Bush. Mr. Holmstead received his 
bachelor's degrees in economics and English from Brigham Young 
University and his law degree from Yale.
    Our next witness is Mr. Seyed Sadredin, the Executive 
Director and Air Pollution Control Officer of the San Joaquin 
Valley Air Pollution Control District. Under his leadership, 
the district developed a clear mission to improve the valley's 
health and quality of life through effective and innovative 
strategies and provide quality customer service to the general 
public and the regulated community. Mr. Sadredin initiated the 
implementation of the Technology Advancement Program, which 
promotes new clean air technology development in the valley. He 
received his bachelor's degree in mechanical engineering from 
California State University at Sacramento.
    Our third witness today is Dr. Elena Craft, Health 
Scientist at the Environmental Defense Fund. Dr. Craft has 
worked on air toxic issues specifically to reduce criteria and 
greenhouse gas emissions from the energy and transportation 
sectors. Her efforts have led to the creation of Clean Truck 
Programs in Houston and other ports around the Southeast. Dr. 
Craft has been appointed to serve a two-year term on the 
Environmental Protection Agency's Science Advisory Board 
Environmental Justice Technical Review Panel. That's the 
longest name of any panel I've heard of. Dr. Craft received her 
bachelor's degree in biology from the University of North 
Carolina, Chapel Hill, her master's degree in toxicology from 
the North Carolina State University, and her Ph.D. in molecular 
technology from Duke University.
    Our final witness is Dr. Michael Honeycutt, the Director of 
the Toxicology Division of the Texas Commission on 
Environmental Quality. Dr. Honeycutt has been employed by the 
TCEQ since 1996 and has managed the division of 14 
toxicologists since 2003. His responsibilities include 
overseeing health effects reviews of air permit applications, 
the review of the results of ambient air monitoring projects, 
and the reviews of human health risk assessments for hazardous 
waste sites. Dr. Honeycutt is an Adjunct Professor at Texas A&M 
University, has published numerous articles, and serves as--or 
served as--or served on numerous external scientific 
committees. Dr. Honeycutt received his bachelor's degree and 
Ph.D. in pharmacology and toxicology from the University of 
Louisiana at Monroe.
    We recognize and appreciate all of you being here today and 
look forward to hearing what you have to say.
    And, Dr. Holmstead, we'll begin with you.

         TESTIMONY OF THE HONORABLE JEFFREY HOLMSTEAD,

               PARTNER, BRACEWELL & GIULIANI LLP

    The Hon. Holmstead. Thank you very much for giving me the 
chance to testify here this morning.
    While I know other people will talk a fair bit about the 
controversies regarding the health science and the effects of 
ozone, what I'd like to do is just put that to one side and say 
this: Regardless of what you think about that, the way that we 
deal with ozone today just no longer makes any sense. Ozone is 
not a new issue. EPA and state agencies have been focused on 
reducing ozone levels for more than 40 years. As a country, we 
have spent much more money on ozone than on any other type of 
pollution, even though all experts believe that other types of 
pollution pose a greater risk to public health.
    Now, because of EPA's new ozone standard, we will be forced 
to spend much more money--tens of millions of dollars--for very 
small incremental reductions in ozone. This is easy to 
understand. This is because for almost 40 years, most of the 
cost-effective, reasonable things that can be done to reduce 
ozone have already been done. Additional reductions will be 
much more expensive.
    Some people think this is okay because the cost is paid by 
big business, but this is not true. The cost is paid entirely 
by real people. We all pay the cost in the form of higher 
prices, smaller retirement accounts, and lower levels of 
economic growth. This is why we should all care about the cost 
of regulations, as well as the benefits.
    I would like to highlight just two issues. First, the new 
ozone standard will effectively ban new industrial development 
in many parts of the country. In many areas, it will be 
impossible to build or expand an industrial facility even 
though it would be built with state-of-the-art emission 
controls and even though the local community might desperately 
want the jobs it would bring.
    Here is why: Anyone who wants to build or expand an 
industrial facility must first obtain a Clean Air Act permit. 
In some areas, you can't get such a permit unless you can first 
show that emissions from the new facility will not ``cause or 
contribute to a violation'' of the new ozone standard. But this 
will not be possible in areas that met the old standard but do 
not meet the new one. You can't show that a new facility will 
not contribute to a violation of the new standard because the 
area, according to EPA, is now in violation. And if you can't 
make this showing, you can't build a new plant, no matter how 
clean it is.
    EPA says that you might be able to get around this problem 
by paying another facility in the area to reduce its emissions 
enough to offset emissions from the new plant. This is called 
``getting offsets.'' But in many cases, this will not be 
possible either. Any areas that exceed the new standard are 
rural areas where there is little or no industry. They exceed 
the standard not because of local emissions but because of 
background ozone and emissions in other areas. In these cases, 
there are no offsets to be purchased so no plants--no new 
plants can be built.
    A related problem will occur in areas that don't meet the 
previous standard. To build a plant in these areas, a company 
has no choice but to purchase offsets. In fact, it must obtain 
offset that are between 10 and 50 percent greater than the 
emissions from the new facility. Now, please note that offsets 
cannot be created by emission reductions that are required by 
EPA or state regulations, only by reductions that go beyond 
what is required.
    But remember, for more than 40 years, EPA and States have 
been looking for every conceivable way to reduce ozone. Where 
there are any additional reductions to be had, they are very 
expensive. For example, in the Houston area where there is so 
much industry, it is possible to purchase offsets, but they are 
enormously expensive, as much as $300,000 a ton. Even a 
relatively small facility with state-of-the-art pollution 
controls would need to spend tens of millions of dollars just 
to purchase enough offsets to get a permit.
    I will summarize the second issue very briefly. The Clean 
Air Act program for dealing with ozone was established in 1970 
when Congress believed that air pollution was primarily a local 
problem and that States could solve it by regulating local 
industry. We now know differently. Ozone is a global issue. 
When there are high ozone levels, they are largely caused by 
things outside of a State's control: by cars and trucks, which 
are regulated by EPA; by natural background; and by emissions 
from other States and other countries.
    The State only has control over emissions from its own 
industrial facilities, but under the Clean Air Act, it has the 
sole legal obligation to meet the new standard. In a number of 
States, however, a State could shut down all the industrial 
facilities in the whole State and still not meet the standard. 
Because 70 parts per billion is so close to background ozone 
levels in some areas, there is simply nothing a State can do to 
meet the new standard.
    As a result, the Clean Air Act now appears to give a rather 
remarkable authority to EPA, the authority to impose a legal 
obligation that is impossible to meet. To me, this seems 
contrary to our long-standing notion about the rule of law and 
the way the federal government should operate.
    Thank you.
    [The prepared statement of the Hon. Holmstead follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Mr. Holmstead.
    Mr. Sadredin.
    Chairman Smith. Make sure your microphone is on. Push----

                TESTIMONY OF MR. SEYED SADREDIN,

                     EXECUTIVE DIRECTOR AND

                 AIR POLLUTION CONTROL OFFICER,

       SAN JOAQUIN VALLEY AIR POLLUTION CONTROL DISTRICT

    Mr. Sadredin. Good morning, Chairman Smith, Ranking Member 
Bonamici, Members of the Committee. Good morning. It's a great 
honor and a pleasure to be here before you today. Thank you for 
the invitation.
    I come from the beautiful and bountiful Central Valley of 
California, San Joaquin Valley. Over the last three decades, 
we've done quite a bit of work to improve quality of life and 
reduce air pollution in San Joaquin Valley.
    I'm not here today to urge your committee to curb EPA's 
authority to set new standards or to--or ask you to--ignore 
them----
    Chairman Smith. Yes, ignore those bells. Yes.
    Mr. Sadredin. --or ask you to roll back any of the health-
protected safeguards in the Clean Air Act that have really 
brought us to where we are today.
    At the outset, I want to say that the Clean Air Act over 
the last 40 years has resulted in a great deal of reduction in 
air pollution, improved public health and quality of life in 
many regions, including our region. What I'm hoping to do, 
though, is to give you a preview of what might seem to be 
coming to your neighborhood with the new standard that EPA just 
published because we have been at the forefront of what we have 
to do even with old standards that EPA published because of our 
geography, topography. The problems that we have faced over the 
last two, three decades are going to be exactly the problems 
that you might face in your neighborhood soon with the new 
standard.
    And I'm here really today to ask the Congress to provide 
guidance to EPA. We believe the world is a different world 
today compared to 25 years ago when the Congress last amended 
the act, or 40 years ago when the Congress passed the act 
unanimously--virtually unanimously. There was only a handful of 
``no'' votes.
    I think if the Congress understood at the time that you 
would face a circumstance like we do today, that after having 
reduced air pollution by over 80 percent in our region and 
having imposed the toughest regulations on every sector of your 
economy from the small ma-and-pa operations, drycleaners, paint 
shops, all the way to your largest power plants and refineries, 
that you would still face a major gap that would dictate a 
tremendous penalty on the residents of your region, the 
businesses that operate in your area. I don't think the bill 
would have passed unanimously, let alone--even if it would pass 
at all.
    So I just wanted to share with you some of our experiences 
and really what we're asking the Congress to do in the form of 
a fine-tuning of the act as we call it. It's our 2015 Clean Air 
Act modernization that has five specific proposals in it. The 
first proposal that we have in our legislative initiative that 
we are taking is to eliminate duplication--duplicative 
requirements, confusion, and costly bureaucratic red tape that 
are--that is--currently happens with our chaotic establishment 
of the new standards by synchronizing the new standards. When 
EPA publishes the new standards, let's synchronize the old 
standards without any rollback. Let's have a unique set of 
requirements that we have to follow instead of having multiple 
plans in place.
    In our region, for instance, right now, we have six 
attainment plans in place with four more attainment plans being 
due in the next four years, all with redundant, duplicative 
requirements that we have to deal with.
    The other requirement--the other change that we're asking--
and I agree with what the Ranking Member said--that a good 
economy and good environment, good public health are not 
mutually exclusive. In fact, we believe you do need a vibrant 
economy to have the wherewithal to do all the difficult things 
that we need to do to improve our air quality.
    So in our proposal we are asking that, instead of the 
formula-based deadlines that the Congress set 25 years ago, to 
take into account the economic feasibility and technological 
achievability in setting deadlines. Give us time to get to 
these tough standards. Don't set impossible deadlines that 
we're not able to meet. Banning fossil fuel combustion, which 
is really what it takes for us to meet the new standard, is not 
doable in--simply in 20 years. We need more time to be able to 
develop the technology and the infrastructure to do that.
    We also ask that the act be amended to really treat 
different pollutants differently. Not all pollutants are 
created equally. When the Congress passed the act some 25 years 
ago with the latest amendments, they thought it was all about 
VOCs, volatile organic compounds. We are finding today that 
science dictates that different pollutants have different 
impacts on air quality, and we need to be able to take--have a 
system that allows us to have a weighing--appropriate weighing 
of those pollutants and deal with them.
    With respect to extreme nonattainment areas such as we are 
in--and I'm almost finished--we ask that you remove the 
requirement for having contingency measures. It is one of those 
well-intended provisions in the act that are leading to 
unintended consequences, and I'd be happy to give you more 
details on that.
    And we also ask that, for regions such as California where 
we have done many things to reduce pollution from mobile 
sources early on, give us the ability to take credit for those, 
as opposed to taking those credits away in a way that some of 
the court rulings are being interpreted by EPA.
    And I have details about all of these in my presentation 
and would be happy to answer any questions you might have.
    [The prepared statement of Mr. Sadredin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Okay. Thank you, Mr. Sadredin.
    And, Dr. Craft.

                   TESTIMONY DR. ELENA CRAFT,

                    SENIOR HEALTH SCIENTIST,

                   ENVIRONMENTAL DEFENSE FUND

    Dr. Craft. Thank you, Chairman Smith, Ms. Bonamici, Members 
of the Committee, for the opportunity to testify here today 
about EPA's revision to the Nation's health-based ambient air 
quality standard for ground-level ozone.
    My name is Elena Craft. I serve as Senior Scientist at 
Environmental Defense Fund, a national nonpartisan science-
based environmental organization where I manage a team working 
to identify strategies and opportunities to reduce harmful air 
pollution such as ozone from pollution hotspots.
    EDF has over 1 million members. Our organization links 
science, economics, law, and private sector partnerships to 
solve our most serious environmental challenges. In addition, I 
have an adjunct appointment at the University of Texas Health 
Sciences Center in Houston. And as I was seven months pregnant 
the last time I testified in front of this committee, I am also 
the mom of a very busy toddler.
    The Clean Air Act is a bedrock public health statute 
representing the best of a bipartisan America encompassing the 
values of environmental protection and healthy air that we 
espouse as a nation. The unanimous vision forged into law by 
the U.S. Senate has secured healthier air for millions of 
Americans netting benefits valued at over $21 trillion between 
1970 and 1990.
    Indeed, by 2020, EPA estimates the 1990 Clean Air Act 
amendments will prevent a projected 230,000 deaths, 2.4 million 
asthma attacks, 200,000 heart attacks, and 5.4 million lost 
school days. EPA also found that these vital health protections 
would provide 2 trillion in monetized benefits. Additionally, 
EPA projects a net overall improvement in economic growth due 
to the benefits of cleaner air.
    The Clean Air Act is sharply focused on ensuring the 
Nation's health standards that are established solely on the 
basis of public health. On October 1, EPA established a revised 
ozone standard of 70 parts per billion, improving America's 
national air quality standard for ground-level ozone. Why? 
Because scientific evidence overwhelmingly demonstrates that 
the previous 75-part-per-billion standard is not requisite to 
protect human health with an adequate margin of safety as 
required by the Clean Air Act.
    The recommendations of the statutorily established and 
independent Clean Air Scientific Advisory Committee underscored 
the need, as determined by the latest scientific evidence, to 
strengthen the ground-level ozone standard. CASAC found clear 
scientific support for the need to revise the standard. While 
recommending a range of 60 to 70 parts per billion, the 
committee went on to emphasize the inadequacy of a standard at 
the upper end of the range. At 70 parts per billion, there is 
substantial scientific evidence of adverse effects, including 
decrease in lung function, increase in respiratory symptoms, 
and increase in airway inflammation.
    And CASAC is not alone in concluding that the 2008 ozone 
standard was inadequate. The American Thoracic Society, the 
American Academy of Pediatrics, the American Medical 
Association, the American Heart Association, the American Lung 
Association, American Public Health Association, Children's 
Environmental Health Network are just a few of the medical and 
public health organizations that have supported strengthening 
the standards.
    Some claim that adopting strong ozone standards will cause 
economic harm. Unfortunately, these sky-is-falling 
prognostications are not new. The fact is that we can do it and 
we have done it. Since 1970, our nation has reduced the six 
pollutants regulated under the National Ambient Air Quality 
Standards program by almost 70 percent, while GDP has grown by 
nearly 240 percent. And currently, 90 percent of areas 
designated for the 1997 ozone health standards now meet those 
standards.
    Regions are not alone in meeting the new health-based 
standards. America has already taken steps over the past few 
years that will help reduce ozone smog pollution and help 
restore healthy air in a cost-effective manner. Some of these 
protections include the Tier 3 tailpipe standards, recently 
finalized greenhouse gas and fuel standards for medium and 
heavy-duty trucks, and EPA's Clean Power Plan.
    The Clean Air Act is a vibrant, bipartisan, made-in-America 
law that has stood the test of time, delivering a stronger, 
healthier, and more prosperous nation. Let's build on this 
legacy of bipartisan collaboration and follow the time-tested 
commonsense path forward in protecting the health of our 
children and our communities. Thank you very much.
    [The prepared statement of Dr. Craft follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Craft.
    And Dr. Honeycutt.

              TESTIMONY OF DR. MICHAEL HONEYCUTT,

                   DIRECTOR, TEXAS COMMISSION

                   ON ENVIRONMENTAL QUALITY,

                      TOXICOLOGY DIVISION

    Mr. Honeycutt. Good morning, Mr. Chairman, and Members of 
the Committee. I'm Dr. Michael Honeycutt, Director of the 
Toxicology Division at the TCEQ. I lead a division of 14 
toxicologists, who are responsible for evaluating a broad 
spectrum of environmental quality issues, including deriving 
acceptable levels of air contaminants.
    The TCEQ has derived acceptable air contaminant levels for 
many thousands of air contaminants over the last 30-plus years, 
and our current team of toxicology risk assessors has over 280 
combined years of experience in these fields. We derive these 
levels using a scientific, peer-reviewed method, and many of 
these levels and their derivation process have been published 
in independent scientific journals. Other state governments, 
federal agencies including the EPA, and other countries use the 
TCEQ's acceptable air contaminant values.
    On October 1 of this year, the EPA decreased the level of 
the ozone standard from an annual fourth-highest daily maximum 
8-hour concentration of 75 parts per billion to 70 parts per 
billion. Today, I will address considerations of overall health 
risk, but first, I would like to set the record straight on the 
ozone science.
    Based on our extensive background in deriving acceptable 
air contaminant levels, we independently reviewed thousands of 
studies on ozone, including the studies the EPA reviewed as a 
part of setting the final standard. Ozone is a simple oxidizing 
chemical that, at high enough concentrations, can cause 
inflammation in the lungs, and it can reversibly limit the 
body's ability to inhale and exhale a normal volume of air. 
However, there remains large uncertainty and variability in the 
scientific literature.
    With regard to changes in lung function and asthma 
exacerbations, eight out of nine studies investigating lung 
function changes caused by ozone showed no difference between 
asthmatics and healthy individuals. As we stated in our 
comments to EPA, the dose that a person would be expected to 
receive at 75 parts per billion is almost no different than 70 
parts per billion or even 65 parts per billion. And you can see 
figure 1 in my comments to see that.
    Consistent with this finding, the EPA does not predict--let 
me state it again. The EPA does not predict that a decrease in 
the ozone standard will cause a statistically significant 
decrease in asthma attacks. You can see figure 2 for that 
information.
    The basis for setting the standard at 70 parts per billion 
was to make it lower than the lowest exposure concentration 
where adverse effects were observed in human controlled 
exposure studies, which was 72 parts per billion. However, in 
order to observe any effects at this low ozone concentration, 
the authors had to expose the human subjects to ozone while 
they were exercising at moderate to heavy exertion for 50 
minutes out of every hour for 6.6 hours. This is an unrealistic 
exposure scenario for the general public, much less for 
sensitive groups. Therefore, it would take higher exposure 
concentrations to have the same effect noted in that study.
    Although asthma exacerbations and changes in lung function 
are the most important and biologically relevant effects, most 
of the monetary benefits that EPA ascribes to reductions in 
ozone are from reductions in premature mortality. They do this 
despite the fact that, from a toxicology standpoint, there is 
no explanation for how eight hours of ozone exposure at 
ambient, present-day concentrations on one day can cause 
premature mortality the next day. In addition, the EPA 
Administrator has expressed a lack of confidence in the studies 
associating ozone with premature mortality due to the inherent 
study uncertainties.
    The results from these studies are also contradictory and 
inconsistent. For example, in the main mortality study that the 
EPA uses, Smith 2009 showed that only seven out of 98 U.S. 
cities have a significant association between eight hour ozone 
concentrations and mortality. Also, astonishingly, the EPA's 
analysis shows mortality increasing in certain cities, 
including Detroit and Houston when decreasing the ozone 
standard from 75 to 70 parts per billion. And no, I did not 
misread that.
    Some inconsistency between study findings is not uncommon. 
Scientists who are experienced in risk assessment can 
incorporate these disparate pieces of information into a 
cohesive characterization of health risk. The EPA would be 
better advised and critiqued on their risk assessment if a risk 
assessor was included on the CASAC. A chemical risk assessor is 
essential to put the potential risk highlighted by the other 
CASAC experts into content--into context with the inherent 
background risk present in our daily lives. The Clean Air Act 
does not require that risks are reduced to zero, and risk 
assessment with uncertainty analysis can demonstrate the 
reduction in risk, or lack thereof, from a reduction in a 
regulatory standard.
    The lack of consideration of overall risk is perhaps more 
apparent--most apparent when reviewing the revisions to the 
EPA's Air Quality Index in the final rule. According to the new 
category breakpoints, sensitive members of the public will now 
be cautioned to consider reducing prolonged or heavy outdoor 
exertion at 55 parts per billion ozone, a number that has no 
experimental basis. Beginning at 71 parts per billion, the EPA 
advises the public to keep their asthma inhalers handy. 
Anecdotally, we are told that some schools in Texas will cancel 
recess when they receive this alert.
    The problem is that this is based on a single study that 
showed a mild lung function effect after exposure to 72 parts 
per billion ozone for 6.6 hours with vigorous exercise. And it 
is being used to cancel a 20-minute recess. In the Dallas-Fort 
Worth area of Texas in 2014, there would have been 23 such days 
that children might not have been able to play outdoors.
    These health messages and the new frequency with which they 
will be released can lead to growing public concern over air 
quality that is actually getting better and can lead to keeping 
our children and ourselves from the well-documented physical 
and psychological benefits of outdoor exercise.
    Let me be clear. Under certain circumstances at high 
concentrations, ground-level ozone can have negative 
implications for respiratory health, but our investigations 
conclude that low concentrations that we see today, the risks 
to respiratory health are small and are not significantly 
diminished by the decreased ozone standard.
    I have a tremendous amount of respect for the intent of the 
Clean Air Act, the EPA, and the role that science plays in 
setting meaningful policy.
    I thank you for the opportunity to be here and I'm happy to 
answer any questions.
    [The prepared statement of Mr. Honeycutt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Honeycutt.
    I recognize myself for questions.
    And, Mr. Holmstead, I would like to direct the first one to 
you, and that is you've mentioned several examples, but would 
you just summarize the adverse consequences of this new ozone 
regulation?
    The Hon. Holmstead. Well, the most immediate one is really 
that it will ban industrial growth in many parts of the 
country. That's not universally true, but there will be many 
parts of the country where, no matter how hard a local 
community wants to attract new industry, it won't be able to do 
so because they can't get the permits they need to build or 
expand a new industrial facility.
    The longer-term consequence is that it really does drive up 
the cost of virtually everything we consume, not only energy, 
but other products as well.
    Chairman Smith. Okay. Thank you, Mr. Holmstead.
    Mr. Sadredin, you mentioned the San Joaquin Valley. Does 
the technology exist today to actually enable that region to 
attain the standards that it needs to attain under the proposed 
rule?
    Mr. Sadredin. The simple answer is no, but that is not 
limited to the newest standard alone. As we speak, EPA has 
already classified the San Joaquin Valley as extreme 
nonattainment even for the 75 parts-per-billion standard and 
the previous standard of 84 parts per billion. And extreme by 
definition means that technology today does not exist.
    Chairman Smith. Any idea when the technology might exist or 
is it just totally unknown?
    Mr. Sadredin. At this point it's unknown. EPA in their 
own--you know, latest regulatory impact analysis, they talk 
about technology that does not exist and they don't know when 
it would be available. And that is why we are urging the 
Congress to take that into account, make some fine-tuning of 
the Clean Air Act to allow that to be considered in setting up 
the deadlines and what it takes, how long it takes to come into 
attainment.
    Chairman Smith. I know you're considering this but I think 
you'll find the courts on your side and if you can't comply 
because the technology is not available, you can't be held 
accountable. So I hope you succeed in that regard.
    Mr. Sadredin. Thank you.
    Chairman Smith. Dr. Honeycutt, would you spend a little 
time explaining to us the single study that the entire ozone 
regulation relies upon and why there are limitations to the 
science that were relied upon in that study? First of all, I 
can't believe we're just relying upon one study. That clearly 
smacks of cherry-picking. But if you'll go into some detail 
about the flaws in the one study and why only one study was 
used.
    Mr. Honeycutt. Sure. It is based on--or the level of the 
standard is based on one study, the Schelegle 2009 study where 
31 people were exposed to ozone at various levels for 6.6 
hours, exercising moderately to vigorously for 50 minutes out 
of every hour during the 6.6 hours. And at the 72 part-per-
billion exposure concentration, six of the 31 people had lung 
decrements--lung function decrements greater than ten percent, 
which EPA considers adverse.
    The problem is the group mean was only 5-1/2 percent, a 
little over 5 percent. And the group mean wasn't adverse, but 
what EPA did was pick out the six that were, so they cherry-
picked those six people out of the group, and you're not 
supposed to do that. That's not scientific. That's why the 
study authors didn't publish the journal article that way 
because it wouldn't have been published because nobody would 
accept that. So that's what it's based on.
    Chairman Smith. If any other organization relied upon a 
single study involving six out of 31 people, it would be 
laughable, and the fact that the EPA is going to subject 
millions of people to an unworkable standard at great cost 
because of that one flawed study is just amazing. And so I 
agree with your conclusion.
    That also concludes my comments, and we'll go now to the 
gentleman from Virginia. Do you want to recognize somebody else 
first?
    Okay. Mr. Beyer is recognized for his questions.
    Mr. Beyer. Thank you, Mr. Chairman, and thank all of you 
very much for being here. And I'm actually pleased to be part 
of this this morning just thinking how far we've come, that we 
have four witnesses representing both people for and against 
the ozone rule who are here testifying that clean air is a good 
thing and that we've come a long way, and all committed to 
making it better.
    And the debate is about the level that was set and the 
costs and benefits, and that for me the factor of this debate 
is progress, so thank you.
    Mr. Chairman, we have a witness from California here today, 
and California really has some unique--okay. I don't need to do 
this for the record so never mind. I'm going to go on. Thank 
you.
    Also for the record, you know, I'm a businessman, family 
business. We have our 42nd anniversary tomorrow in retail 
automobile sales and service, and so for 42 years I've been 
hearing about the devastating consequences of new regulations. 
I just want to say that that's nuts. I remember 1982 Ronald 
Reagan's Federal Trade Commission was coming out with the used-
car disclaimer on the windows, and everywhere in America, all 
the things were this is going to be the end of the free market, 
the end of automobile sales. We adapted to it in about a week.
    2009 CAFE standards have been set at 22 miles per gallon 
from '92 through 2008. President Obama raised it to 35 by 2016, 
again, devastating consequences. We were told the technology 
does not exist. Well, it's almost 2016. We'll be at 35 miles 
per gallon. We're about to sell 17 million new cars in America 
this year, and manufacturers and dealers are having all-time 
profit years. If anything has pulled down profits, it's been 
the internet and the quantitization of our product.
    Dr. Craft, we just heard Dr. Honeycutt say that all this is 
based on this one study, six out of 35 people. It's my 
understanding, though, that before the Schelegle study was 
done, in the George W. Bush Administration, his EPA Clean Air 
Scientific Advisory Committee Ozone Review Panel wanted it to 
be set between 60 and 70 parts and unanimously recommended that 
and were disappointed when the President, you know, recognizing 
business pressure, put it at 75. How do you respond to that? 
And is this really based on one study and six people?
    Dr. Craft. Thank you. No, it's not. We have sound evidence 
of the health effects of ozone from three branches of science, 
controlled human exposures, community health studies, and 
toxicology studies. EPA reviewed thousands and thousands of 
papers. They have summarized their scientific findings in the 
Integrated Scientific Assessment, which was under review by 
three different Science Advisory Committees. They have 
published those findings. The public was able to participate in 
looking at the review that EPA scientists had done.
    And just a couple of examples of the--from the summary--
from EPA's summary, they looked at respiratory effects, causal 
relationship between short-term ozone exposure and respiratory 
health effects. They have looked at cardiovascular effects 
likely to be causal relationship for short-term exposures to 
ozone and cardiovascular effects, central nervous system 
effects suggestive of a causal relationship between ozone 
exposure and CNS effects, total mortality likely to be a causal 
relationship between short-term exposures to ozone and total 
mortality. These are not summaries that were derived from a 
study that picked out six people.
    I guess I wanted to also mention that while the 
Administrator noted the study in her announcement of the 
standard, there are other studies that have shown that there is 
a significant effect below 72. It's the Kim study from 2011. 
So, you know, the idea that we're relying on just one study is 
not accurate, and it has been a process where EPA has included 
the public and has been very transparent in this process.
    Mr. Beyer. Great. I'd also like to point out quickly that 
in the pharmaceuticals, they'll spend hundreds of millions of 
dollars testing new drugs, and if they get one or two or three 
adverse effects out of 100,000, they'll take the drug off the 
market. So six out of 35 actually seems like an awful lot to 
me.
    Dr. Keet at Johns Hopkins had a paper that has been 
misinterpreted to say that poverty makes asthma worse rather 
than ozone. Can you respond to this mischaracterization of Dr. 
Keet's letter?
    And I'd like to enter her response for the record, please, 
without objection.
    Chairman Smith. Without objection.
    [The appears in Appendix II]
    Dr. Craft. Sure. That paper, I think, was misunderstood. 
The study did not actually look at air pollution at all, so any 
characterization that air pollution is caused by poverty was 
not the subject of the study itself. And I think that's what 
Dr. Keet has sent and submitted as part of her letter.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. So we had one person telling us that this 
is all based on one study, and we have another witness telling 
us that there are thousands of studies that indicate this. 
Could you name a few studies, Ms. Craft, that have actually 
been accepted by the EPA Administrator as being legitimate 
studies that went into this decision?
    Dr. Craft. In the Integrated Science Assessment, the EPA 
derived--they include all of the studies that they looked at in 
referencing----
    Mr. Rohrabacher. Could you name me a couple of the studies 
that they--that the--is my understanding that the EPA 
Administrator has said that there are thousands of studies that 
have happened on this but none that can be trusted. Maybe you 
could name us two or three other studies that have been trusted 
that would be accepted by the EPA Administrator on this.
    Dr. Craft. Yes, I guess I'm not sure what you mean by 
trusted. I mean the EPA looked at all of the available studies. 
So, for example, Jarrett et al. 2009----
    Mr. Rohrabacher. Okay, so you're saying--say this again 
now. You're giving us a specific now because I'm going to want 
Dr. Honeycutt's response to this. So there was a--what study 
you're talking about now specifically?
    Dr. Craft. Well, I guess it--is the question what are some 
of the studies the EPA examined as part of their Integrated 
Science Assessment?
    Mr. Rohrabacher. No. Which ones were accepted by the EPA 
Administrator as being specific to this decision? We are being 
told by Mr. Honeycutt that you--that there's only one study and 
that we're naming it now that specifically justified these EPA 
rules. You're telling us that--and that the EPA used as an 
example of this is why we are putting this new rule out. And 
you're saying that there are thousands of other studies. Could 
you name us several that the EPA has cited as reasons for their 
decision?
    Dr. Craft. I guess the question is about EPA relying on 
only one study, and I guess my opinion is that that is a 
mischaracterization, and I'm not sure where that is 
characterized in the----
    Mr. Rohrabacher. Well, maybe you could tell us the name of 
three or four studies that--you're saying there are thousands 
of them--that the EPA has used to justify this change.
    Dr. Craft. Well, they've looked at----
    Mr. Rohrabacher. I'm not saying----
    Dr. Craft. --a lot of studies.
    Mr. Rohrabacher. No, no, what have they said this is what 
justifies our change, not that there is an amorphous over here. 
We've looked at thousands of things for and against. As far as 
we know, the thousands--for all we know, maybe half of them, 
they believe, were against what they have decided on. What two 
or three studies--this guy is saying we've--there's only one. 
You're saying there are thousands. Give us two or three studies 
that the EPA has used to back up this change in regulation.
    Dr. Craft. The Jarrett et al. 2009 study, the Kim et al. 
2011 study. There is----
    Mr. Rohrabacher. Okay.
    Dr. Craft. --the Stevens study. I mean I can name----
    Mr. Rohrabacher. Okay. Now, we have----
    Dr. Craft. --a lot of ozone studies.
    Mr. Rohrabacher. Okay. You've just named three, is that 
correct?
    Dr. Craft. Right.
    Mr. Rohrabacher. Okay. Now, go for it, Mr. Honeycutt. 
What--why--you've said there's only one.
    Mr. Honeycutt. Actually, the Kim study did not find 
effects. Well, it found significant decrease in FEV1, a 1.8 
percent decrease at 60 parts per billion, but by nobody's 
definition is that an adverse effect, not the American Thoracic 
Association--Society's, not by EPA's, by nobody's.
    Mr. Rohrabacher. Okay. So you're just saying that there has 
only been one study that shows----
    Mr. Honeycutt. The Schelegle study.
    Mr. Rohrabacher. --an actual detrimental impact, but----
    Mr. Honeycutt. Well, it depends on your definition, okay? 
By EPA's definition it's not unless you pick out the six 
people. So----
    Mr. Rohrabacher. Okay.
    Mr. Honeycutt. --the previous----
    Mr. Rohrabacher. So is this----
    Mr. Honeycutt. The previous a standard was set based on 
epidemiology data. This one they switched it and based it on 
the clinical data.
    Mr. Rohrabacher. Okay.
    Mr. Honeycutt. And CASAC spent a whole day talking about 
this one study and where they should--how--the phraseology they 
should use----
    Mr. Rohrabacher. Okay.
    Mr. Honeycutt. --in----
    Mr. Rohrabacher. I want to get to the one that was just 
given as an example, and you say that one did not----
    Mr. Honeycutt. Jarrett 2009.
    Mr. Rohrabacher. And that is not--and that did not 
justify----
    Mr. Honeycutt. That is the only long-term study out of 12 
that found effects--associations with ozone.
    Mr. Rohrabacher. Yeah, but we just had--what was the--I'm 
sorry. I'm new to this. I'm a novice on these specific studies 
now.
    Mr. Honeycutt. I actually have the studies right here. I 
can share them with you.
    Mr. Rohrabacher. Oh, so you have--Dr. Craft, you have--the 
specific study, you just mentioned three studies, is that 
correct, to us?
    Dr. Craft. Yes, I mentioned three. Yes.
    Mr. Rohrabacher. Okay. And you're saying those three do not 
indicate that--and have not been--meet the EPA's justification 
for the standard change----
    Mr. Honeycutt. Well, there's different things, okay? 
There's the--the single study was used to say 72 is the 
number----
    Mr. Rohrabacher. Yeah.
    Mr. Honeycutt. --okay? And then they said, well, all these 
other thousands of studies support that.
    Mr. Rohrabacher. Okay.
    Mr. Honeycutt. Okay? But there was one study that the EPA 
says, okay, this is the reason we're going to set it at 72. And 
CASAC spent a whole day talking about that one study. I watched 
it.
    Mr. Rohrabacher. But the other studies do indicate that 
with the----
    Mr. Honeycutt. The Kim study doesn't.
    Mr. Rohrabacher. Does not. You're saying that this study 
does or you're saying----
    Mr. Honeycutt. And actually, the Jarrett study does not 
either.
    Mr. Rohrabacher. Please go right ahead.
    Dr. Craft. Well----
    Chairman Smith. The----
    Dr. Craft. --I guess I just wanted to mention that these 
studies were done in perfectly healthy individuals. So the fact 
is is that the Clean Air Act requires that you set a standard 
that's requisite with an adequate margin of safety. And so that 
is one of the issues. So maybe a 1.8 percent decremented lung 
function in a perfectly healthy person is not considered an 
adverse health effect, but if someone has asthma or COPD, then 
in fact it is so----
    Mr. Rohrabacher. But that's your opinion and not the EPA's?
    Chairman Smith. The gentleman's time has expired. Thank 
you, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you.
    Chairman Smith. And the gentlewoman from Oregon, Ms. 
Bonamici, is recognized.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    I want to start by aligning myself with Mr. Beyer's 
comments. I think we can all agree that our constituents, our 
children, our families expect and deserve to live in an 
environment where the air they breathe and the water they drink 
is healthy. So start with that premise.
    Also, I want to talk a little bit about how there's been a 
conversation about the cost and technological challenges 
associated with implementing the new ozone standard. And we've 
had this conversation many times in the Committee, that 
oftentimes the regulation drives innovation and technology. 
We're a very innovative country and certainly when there's a 
requirement, our companies step up and develop new 
technologies. I have confidence in that.
    I want to talk, Dr. Craft--we had this conversation in your 
testimony and my statement about how the Clean Air Act does not 
permit the EPA to consider the costs or the attainability of 
technological feasibility. They determine the standard based on 
public health concerns. So I want you to comment on why that's 
important, but then I also want you to expand a bit, please, on 
your comments in your testimony about the prevention of 
premature death, asthma attacks, and more. Can you talk about 
the costs saved under the lower standard, costs like healthcare 
costs and lost productivity?
    Dr. Craft. Thank you. You know, Congress intentionally set 
the Clean Air Act to specifically not consider cost, and I 
think the reason that they did that is because they wanted the 
integrity of the science to be maintained. The science is a 
separate and distinct issue from costs or implementation. The 
primary goal of the standard is that it will protect the health 
of the population with an adequate margin of safety. I think in 
past history cost estimates have been overblown and 
overestimated. If you were to let costs be considered as you 
evaluate the science, you may come to different conclusions, 
conclusions that would be unduly influenced by cost estimates. 
I think that's why Congress is so explicit on this point.
    And just as a note on the devastation to the economy, I'd 
like to read a section from a report from the Texas Commission 
on Environmental Quality. In 2009, the Houston region reached 
attainment with a 1997 ozone NAAQS. According to an economic 
analysis completed by the TCEQ, the Houston area exhibited the 
highest economic activity of any three-year period on record 
during the 2007 through 2009 time period. The analysis further 
describes that over the last two decades, ozone concentrations 
and economic growth have rarely been correlated in the Houston 
area and that many of the years that saw a robust economic 
growth coincided with declines in the 8-hour and 1-hour ozone 
design values.
    According to TCEQ's analysis, ``reducing ozone 
concentrations in the presence of continuing economic growth 
through the development of State Implementation Plans and 
implementing control strategies for emission reduction is 
possible. Expansion of emitting activities during phases of 
economic growth certainly makes the task of attaining clean air 
standards more challenging, but it should not prevent and has 
not prevented the HGB area, among many others, from making 
substantial progress in improving air quality.''
    Ms. Bonamici. Thank you, Doctor. I want to get one more 
question in. My time is about to expire.
    I would like you to comment, please, on the issue that I 
mentioned about--like in my home State of Oregon, they have a 
concern about the background and the long-range transport of 
ozone or precursors. So I know that the act allows for these 
exceptional event exceptions when there's something like a 
wildfire or transport of air pollution from overseas, so can 
you please talk about what recommendations you might have for 
the EPA as they begin revising the Exceptional Events Rule?
    Dr. Craft. Sure. First of all, instances of elevated 
background ozone in Western States are actually infrequent and 
have been shown to rarely contribute to exceedances in the 
NAAQS. Even where background ozone levels can reach a 
considerable fraction of seasonal mean ozone levels, 
anthropogenic emission sources are the dominant contributor to 
the most modeled ozone exceedances of the proposed NAAQS. And 
the days when ozone levels are elevated do not have higher 
levels of background ozone.
    And then just recently, Janet McCabe, Acting Assistant 
Administrator, Office of Air and Radiation, issued some 
guidance. ``Under the Clean Air Act, States are not responsible 
for reducing emissions from background sources. We intend to 
work directly with responsible air management agencies in these 
areas to ensure that all Clean Air Act provisions that would 
provide regulatory relief associated with background ozone are 
recognized.'' And they are currently developing those revisions 
to the Exceptional Events Rule, and I think the process there 
is that they want to streamline the procedures that the state 
environmental agencies have to go through to have approval of 
the exceptional events.
    Ms. Bonamici. Thank you, Dr. Craft.
    My time is expired. I yield back. Thank you, Mr. Chairman.
    Mr. Johnson of Ohio. [Presiding] I thank the gentlewoman 
for yielding back.
    The Chairman has stepped out and I'm pleased to sit in, and 
I've got a few questions now if I might. And I'm going to start 
by submitting two items for the record. The first is a map that 
shows the nonattainment areas in Ohio, areas that would violate 
the 70 parts-per-billion standard.
    [The information appears in Appendix II]
    Mr. Johnson of Ohio. And the second item is a letter by 
Ohio's Lieutenant Governor Mary Taylor to EPA Administrator 
McCarthy, and this letter is from March 2015 in which the 
Lieutenant Governor expresses serious concerns with the 
proposed rule to change the National Ambient Air Quality 
Standard for ground-level ozone from 75 parts per billion to a 
standard in the range of 65 to 70 parts per billion, and asks 
that the EPA Administrator reconsider these burdensome 
regulations. And as we all know, the EPA has moved forward with 
their proposal to lower the standard to 70 parts per billion.
    [The information appears in Appendix II]
    Mr. Johnson of Ohio. So, Mr. Holmstead and Mr. Sadredin, 
how do these stringent ozone standards and regulations 
discourage economic development? Mr. Holmstead, you can go 
first.
    The Hon. Holmstead. Well, as I've tried to say, I think the 
biggest issue in the near term is that it just stops people 
from building new industrial facilities. And I think what's 
especially pernicious about this standard is that it will bring 
all these rural areas into nonattainment. And the way the act 
works--and this is one of the things I just don't think makes 
any sense--is if you want to build a plant in this rural area 
where there's no other pollution sources, you can't do it 
because the only way you can build that plant is if you pay 
someone else in that area to reduce their emissions. And so you 
have these communities that would like to have state-of-the-
art, best-controlled plants in their communities to provide 
jobs and economic opportunity, but you can't do it because the 
Clean Air Act prevents it because of this new standard.
    Mr. Johnson of Ohio. Mr. Sadredin?
    Mr. Sadredin. Yes, Mr. Chairman. Every time you establish a 
standard, it essentially establishes a tolerance limit for your 
region for pollution above which you simply will be in 
violation of the standard and the Clean Air Act regulations, 
which then kicks in very expensive sanctions.
    In our region in San Joaquin Valley in California, the 
background ozone concentration is about 50 to 60 parts per 
billion, and that is not, you know, on days when--Dr. Elena 
mentioned that, you know, you should not be worried about 
attainment because those are not the days you violate the 
standard. We're talking about ground-level ozone concentrations 
on the days when our region exceeds the standard. Just simply 
the background ozone concentration is about 50 to 60. So when 
you have that and then you look at the standard of 70 parts per 
billion, you only have that 10 parts-per-billion margin that 
can be tolerated by manmade local air pollution, which means 
essentially in your area you have no tolerance for growth. You 
cannot let new businesses come in. In addition, you have to go 
after existing businesses to reduce air pollution.
    Mr. Johnson of Ohio. If that's the case where you've got 
that 10 parts-per-billion margin, if that's going to stymie 
growth, is it accurate to say then, is a safe to say that those 
areas that are in nonattainment, there is no growth? I mean 
they are squelched in terms of being able to grow economically?
    Mr. Sadredin. Right. As it's written right now, it requires 
that even if you're in attainment right now, let's say with the 
existing standard, before you can permit a new facility, you 
have to make a finding--scientific finding that the new permit, 
new facility will not cause a violation or contribute to 
violating a new standard. In this case, you know, with that 10 
parts-per-billion margin of error, that's a very tight standard 
that is quite difficult to meet, and then you need offsets. As 
Mr. Holmstead mentioned, you don't have credits to be able to 
bring in facilities, and so it makes it very costly.
    In California we are essentially in the position that 
businesses do not locate in California unless they have to.
    Mr. Johnson of Ohio. Okay. You know, One of the things that 
has really spurred America's economic energy boom here over the 
last few years has been the shale play in eastern and 
southeastern Ohio. Do you think these more stringent ozone 
standards undermine the benefits that we've seen in the energy 
revolution, the energy boom with oil and gas?
    Mr. Sadredin. Well, for our region and California in 
particular, even southern California, to be able to meet the 
new standard, we have to ban fossil fuel combustion emissions. 
That has to happen either through totally eliminating fossil 
fuel combustion--and I'm not only talking about mobile 
sources--cars and trucks--we're talking about industrial 
facilities no longer being able to use natural gas, any kind of 
fuel in their----
    Mr. Johnson of Ohio. In an area like eastern and 
southeastern Ohio where we still get over 60 percent of our 
energy from coal, that's a heavy lift for us.
    My time has expired. I'd like to now go to our colleague, 
our gentlewoman from Massachusetts, Ms. Clark.
    Ms. Clark. Thank you, Mr. Chairman, and thank you to all 
the panelists for being here today.
    Mr. Chairman, I have a letter supporting the lower ozone 
standard from locally elected officials from across the 
country, including Mayor Rob Dolan from my hometown of Melrose. 
And in that letter they state ``the current George W. Bush-era 
standard of 75 parts per billion has been widely acknowledged 
by the medical community as insufficient to protect public 
health. As mayors, we are on the front lines of protecting the 
safety and well-being of our constituents, and this long-
overdue update will reap tremendous benefits for our 
communities.''
    I ask that this letter be submitted for the record.
    [The information appears in Appendix II]
    Ms. Clark. And I would also like to refer to another letter 
that I will ask also be submitted for the record, and this is a 
letter I would like to ask Dr. Craft about. It's dated April 7, 
2008, and this is under the Bush Administration. This is from 
the members of CASAC, the Clean Air Scientific Advisory 
Committee. And in this letter 18 members of that committee, 
those scientists, unanimously wrote that they recommend 
decreasing the primary standard within the range of 60 to 70 
parts per million--I'm sorry, per billion. ``It is the 
committee's consensus scientific opinion that the decision to 
set the primary ozone standard above this range fails to 
satisfy the explicit stipulations of the Clean Air Act that you 
ensure an adequate margin of safety for all individuals, 
including sensitive populations.''
    [The information appears in Appendix II]
    Ms. Clark. Dr. Craft, could you comment on the difference 
between what we're hearing today, that this is based on 
something new and perhaps one study in this letter of April 
7th, 2008, where we had 18 members unanimously recommending an 
even lower standard than the one we're looking at implementing?
    Dr. Craft. Yes, thank you. There is strong scientific 
consensus that the ozone standard must be significantly 
strengthened. Since the last review, scientific evidence has 
only grown on the many health risks associated with ozone. It's 
documented in EPA's Integrated Science Assessment. The 
assessment is a result of a rigorous multiyear expert review 
process with several public hearings and comment, and it 
concluded that ozone harms lung health, including causing 
asthma attacks and increasing the risk of hospital and 
emergency room visits.
    It also concluded that ozone likely caused premature deaths 
and identified new threats, providing strong evidence linking 
ozone to cardiovascular harm and low birth weight in newborns.
    There have been multiple doctors that have testified in 
some of these hearings. I'd like to just point out some that 
were given by Dr. Greg Wellenius. He presented to the Senate 
Environment and Public Works Committee in December. In his 
testimony he noted the physiologic mechanisms occurring with 
ozone exposure: activation of neural reflexes, initiation of 
inflammation, sensitization of bronchial smooth muscle, changes 
in immunity, and airway remodeling as some of the underlying 
physiological mechanisms associated with ozone concentrations 
below the current standard that contribute to those increased 
hospital visits, those increased asthma attacks, and those days 
of missed work and missed school.
    Ms. Clark. Dr. Craft, in the letter from the mayors from 
across the country, they estimate that taxpayers would save as 
much as 75.9 billion through lower healthcare costs. Is this in 
line with the numbers that you've seen?
    Dr. Craft. Yes, it is, and I'd like to point out that six 
of the top 10 fastest-growing cities in the country are in 
Texas and California, so the idea that, you know, we're 
trampling economic growth because of an onerous ozone standard 
is not held up in the economic development that's been 
reported.
    Ms. Clark. And going back for a second to the April 2008 
letter, it's my understanding that this was based--this 
unanimous recommendation of 60 to 70 parts per billion was 
based on almost 1,300 scientific studies at that time in 2008. 
Is that correct?
    Dr. Craft. Yes, that's correct.
    Ms. Clark. Thank you. I yield back.
    Mr. Johnson of Ohio. I thank the gentlewoman for yielding 
back. I now go to--I recognize our colleague Mr. Bridenstine 
from Oklahoma.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    So it's really difficult if not impossible to prove a 
counterfactual, which means if the economy in Texas is growing, 
there's a whole host of reasons that could be, and more 
regulations does not grow the economy in Texas, same in 
California.
    In fact, I'd like to address the issue specifically that 
we've been talking about. I grew up in Arlington, Texas. I 
represent the 1st District of Oklahoma now. I went to college 
at Rice University down in Houston, Texas. And I'd like to 
address my question to Dr. Honeycutt.
    In your testimony, you wrote ``astonishingly''--and every 
time I read testimony and the word astonishingly shows up, what 
comes next is critically important. ``Astonishingly, EPA's 
analysis''--that's the EPA's own analysis--``shows mortality 
increasing in certain cities, including Detroit and Houston, 
when decreasing the ozone standard from 75 parts per billion to 
70 parts per billion.'' That is astonishing. Did that get taken 
into account? What they're suggesting is that it's worth maybe 
increasing mortality for these regulations? Can you address 
this for us?
    Mr. Honeycutt. Sure. That's called the NOx disbenefit. And 
if you look nationwide, there would be a net--according to EPA, 
a net decrease in mortality, but if you look at a couple--some 
specific cities, they looked at 12 in particular, those two 
cities, lowering the standard would actually increase 
mortality. And it's because NOx both creates and destroys 
ozone. So what you're going to be doing is increasing ozone 
concentrations in the inner cities while decreasing it in the 
suburbs.
    Mr. Bridenstine. That is good information that we on the 
Committee need to hear.
    Question for Mr. Sadredin. Maybe you could say that for us. 
Sorry.
    Mr. Sadredin. Sadredin.
    Mr. Bridenstine. Sadredin, thank you. How many different 
State Implementation Plans does the San Joaquin Valley have in 
effect today?
    Mr. Sadredin. As we speak today, we have six different 
State Implementation Plans for ozone and particulate matter, 
all with multiple milestones, redundant, duplicative timelines 
that we have to comply with. And as we speak today, we're in 
the process of writing another plan for the standard that was 
just replaced, and in the next three years we have to write 
four additional State Implementation Plans for a total of 10 
State Implementation Plans just for ozone and particulate 
matter.
    Mr. Bridenstine. And how difficult is it for your agency to 
keep up with these SIPs?
    Mr. Sadredin. Yes, you know, that's the least of the 
problems, you know, the government inefficiency that this 
brings about, the staff work. The bigger concern that we have 
with this is the confusion that this brings to the public, to 
the business community that is subject to these redundant, 
duplicative regulations, and a tremendous number of lawsuits 
that each of these same deadlines, same targets that are 
established in, you know, 10 different vehicles create 
opportunities for attorneys. Of course, that's good job 
security for them, but good government it is not. Good public 
education it is not.
    And it is something that could easily be fixed in our 
opinion. One of the suggestions that we are making in this 2015 
Clean Air Act modernization that we're proposing is that, when 
EPA establishes a new standard, for them to subsume the old 
standards into the new one, pick the most stringent 
requirements from the previous standards, give us a single set 
of timelines and deadlines to meet, to be able to educate the 
public, and also make sure we can enforce them effectively in a 
rapid fashion.
    Mr. Bridenstine. And I would just like to conclude by 
saying that we've heard folks suggest that, you know, certain 
local officials are in favor of more stringent National Ambient 
Air Quality Standards for ozone, certain local officials are 
opposed to it. I can tell you for my State of Oklahoma, local 
officials are very opposed to it.
    I hope everybody understands that if the State of Oregon or 
the State of California, if other states want to have more 
stringent plans, that's not going to bother my constituents in 
the State of Oklahoma. They can go ahead and do those things 
without having to do it in Oklahoma. And so I just want 
everybody to understand, when states become implementers of 
federal policy and then they end up getting bullied by the 
federal government, if you do this, then X, Y, or Z will 
happen, that's not the role of the federal government to say 
that we're going to cut off your highway transportation funding 
if you don't comply with this new standard. This is federal 
bullying. It needs to stop. And if Oregon or another state 
wants to implement more stringent standards, I'm okay with 
that.
    So with that, Mr. Chairman, I'll yield back.
    Mr. Johnson of Ohio. I thank the gentleman for yielding 
back.
    I now recognize the gentlewoman from California, Ms. 
Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I'm pleased that we have a witness from California on 
today's panel, as our State has unique challenges when it comes 
to addressing air pollution.
    However, I think the changes to the Clean Air Act suggested 
by Mr. Sadredin's testimony would have the effect of delaying 
future efforts by EPA to protect health and the environment, 
and that's a position that's not supported by most 
Californians.
    In fact, I have a letter from the Coalition for Clean Air 
based in California that says, ``what will not help 
Californians to breathe easier is the proposal from the San 
Joaquin Valley Air Pollution Control District to weaken the 
Clean Air Act.''
    And I also have a letter from the Central Valley Air 
Quality Coalition which says, ``we learn more every day of the 
impacts of air pollution on our health, and our valley has 
become numb to the information because Mr. Sadredin and the 
Valley Air Board disregarded, blame external factors, and have 
failed to find a balance between supporting business and 
protecting public health.''
    And lastly, I have an op-ed by two current members of the 
San Joaquin Valley Air District Board, Dr. Alexander Sherriffs 
and Dr. John Capitman, who write ``we cannot support a policy 
direction which threatens to extend the time valley residents 
are breathing unhealthful air. The district needs to focus on 
policy and advocacy to increase the tools and resources to meet 
more healthful air standards, not on how to delay attainment.''
    And I'd like a unanimous consent to put these three 
documents in the record, Mr. Chairman. May I have unanimous 
consent, Mr. Chairman?
    Mr. Johnson of Ohio. Without objection.
    [The information appears in Appendix II]
    Ms. Lofgren. Thank you very much.
    You know, the Central Valley is--I chair the California 
Democratic Delegation, and we have a diverse State, and the 
Central Valley is a key and important element of our State. 
It's much valued.
    It suffers from pollution that comes from the bay area 
where I live. It blows in on I-5 from--even from Asia but also 
created in the valley itself, including significant volatile 
organic compound emissions from dairies and also oil and gas 
operations. And those things have created a problem in the 
valley. We have the highest asthma rate among children of any 
place in the United States right in our Central Valley, and 
it's a huge problem.
    Now, we can change the impact by technology. I come from 
Silicon Valley, and we know that if you have a problem, you 
don't have to suffer. You can set standards and meet those 
standards. And you can--for example, farmers have switched from 
diesel pumps to electric pumps. They've purchased cleaner-
burning tractors thanks to incentive programs. We have--along 
I-5 we're switching. We now have a very aggressive standard in 
the State for switching to alternative energy we're going to 
meet.
    You know, we have 1,000 premature deaths every year in the 
valley because of air pollution, and among all air pollutants 
contributing to cancer, diesel emissions is number one. So I 
think we have a great opportunity to promote even cleaner 
technologies and to create a cleaner environment for the people 
of the Central Valley and most especially for the children.
    So here is my question for you, Dr. Craft. The--with so 
many children with asthma out in the Central Valley, what is 
the adverse physiological effects on kids with asthma from 
ozone pollution, and how can increased exposure to ozone impact 
the health of children? It costs--the lost time because of 
health impacts out in the Central Valley is costing the valley 
$1 billion a year. I realize you're looking at just the health 
impacts, not the economy, but we are losing money in the valley 
because of these adverse health impacts. What can you talk to 
us about with these children and others with asthma?
    Dr. Craft. Well, I'd like to say that children are 
especially vulnerable to the harms of air pollution, 
particularly those kids with asthma, and so it leads to 
increases in emergency room visits, missed school days, missed 
workdays for parents. And it can also lead to permanent long-
term damage. Actually, the Gauderman study didn't--looked and 
saw that air pollution in general showed that if air pollution 
is reduced, it leads to better lung health later in life. 
It's--I think there is a lot of evidence supporting the fact 
that cleaner air is good for lungs of all ages, but especially 
for our most vulnerable, our kids.
    Ms. Lofgren. Thank you. I'd just like to note that I think 
some of the objections from these outside groups that are 
running ads reminds me of the tobacco companies fighting 
control of tobacco, which caused lung cancer. And, you know, 
there's a lot of comments made about how regulation and control 
harm the economy. I'd just like to point out that California, 
that is embracing the green, looking for health, beat Texas in 
job growth by 30 percent----
    Mr. Johnson. [Presiding] Well, very good.
    Ms. Lofgren. --with our approach and----
    Mr. Johnson. The gentlewoman's time has expired.
    Ms. Lofgren. --I would yield back.
    Mr. Johnson. Thank you. Mr. Sadredin and Dr. Honeycutt, 
your names were mentioned there for the last few minutes. Would 
either one of you care to respond to that?
    Mr. Sadredin. Yes, thank you, Mr. Chairman, just very 
quickly. I appreciate the good advice from the Congresswoman, 
and we always look to the bay area, our neighbor, to do their 
part to help us with the pollution that they sent our way.
    But make no mistake, although San Joaquin Valley is a 
conservative region in California, today, we have put in place 
the most stringent regulations that you can imagine to the 
point that Los Angeles now looks up to us in terms of what 
could be done. And by no means we're asking for delays in 
getting there, but I urge you to take a look at the chart that 
I gave the Committee in my testimony on page 5 that talks about 
how much reductions we have to make.
    If you look at that chart, it breaks down emissions by 
various source categories of air pollution. The top part where 
it says the stationary and area sources, that's all the valley 
businesses, oil production, farming operation. As you can see, 
even if we eliminated all of those sources, just simply said 
move out of the valley, we'll come nowhere to meeting the 
standard. The bottom--the two lines that you see on the bottom 
are where we need to go to meet those standards.
    So I know industry cries wolf many times, and as a 
regulator, I've seen that over the years. But once in a while 
that boy is right, that the wolf might be coming, and I think 
this is one of those cases. If you look at the numbers that I 
have here for you, we have to essentially eliminate all 
pollution sources in San Joaquin Valley to meet that.
    And just one final comment regarding the health impact and 
the cost, and a lot of times people misrepresent these numbers 
by saying there's a healthcare cost that you're going to avoid 
for ozone. It's very minimal and a big part--90 percent plus 
portion of this cost is the life insurance value that they put 
on a premature death, which is questionable but it's not a real 
contribution in a lot of the economy that we are referring to.
    Mr. Johnson. Sure. Dr. Honeycutt, would you like to 
respond?
    Mr. Honeycutt. Sure. The Gauderman study that Dr. Craft 
just mentioned specifically said that ozone does not affect 
lung development. And I have it here if you want to read it. 
And the follow-up that they just released found the same thing, 
that ozone does not affect lung development. And I have both of 
those. I'd be happy to read you the conclusions if you'd like.
    And also, as far as asthmatics, the data is very clear. 
Asthmatics are no more sensitive to ozone than non-asthmatics 
are. And again, I have those studies here. I'd be happy to 
share them with you.
    Mr. Weber. The Chair now recognizes the gentleman from 
Georgia. Barry, you're up.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    And I also noticed that every time Mr.--is it Sadredin--
speaks, the alarm goes off like it's highlighting we better 
listen to what he's saying. It's some type of----
    Mr. Weber. Ozone levels must really be high when he speaks.
    Mr. Loudermilk. I appreciate the testimony here. This is a 
very important issue because of the impact that it's going to 
have. And I've always been one that it takes--in business and 
in everything else, you can only do so much and then you have 
diminishing returns because you've gone too far.
    Mr. Holmstead, does the Clean Air Act allow for special 
treatment for places where air quality may be affected by 
emissions from other countries such as Mexico or China or even 
in other areas of a state or region? My understanding from the 
testimony I've heard and what I've read is that we're not 
giving an account for pollution that may be created in another 
area and move into an area that would cause the receiving area 
to be in non-attainment. Is there an exemption? Is there 
allowance for those?
    The Hon. Holmstead. I'm sorry to have to say it's 
complicated.
    Mr. Loudermilk. Okay.
    The Hon. Holmstead. In theory, some of those things can be 
excused. In practice, EPA has never really allowed that. And 
one of the things you're hearing about is this exceptional 
events policy. It's been almost impossible for anyone--I mean 
it takes hundreds of thousands of dollars and years to try to 
get EPA to excuse one exceptional event.
    The other thing I would point out, though, is the Clean Air 
Act itself--and that's why--you know, we're talking about these 
levels. What we really should be talking about is the 
implications of the standard. Everybody agrees that we ought to 
be improving air pollution, but the way the standard setting 
works with all the other regulations just doesn't make any 
sense anymore.
    And right now, the Clean Air Act specifically says that 
certain weather events, the things that cause high episodes of 
ozone, cannot be excused. It says meteorological inversions and 
stagnant air. Those are events that are completely outside the 
control of any State, and yet you're held accountable for those 
things. And under the Clean Air Act, that's just one other 
thing that just ought to be changed.
    Mr. Loudermilk. Well, it's interesting you bring that up 
because I'm looking at a map here which, Mr. Chairman, I'd like 
to submit for the record, which is the impact area on the State 
of Georgia that the new standards would have as far as the 
areas that would be out of attainment at this point.
    And I also have a letter from our governor of our state, 
Hon. Nathan Deal, who also served in this body at one time, who 
says that in these areas, it would be impossible for us to 
reach attainment because of the way the standards are written, 
and I also point out that the area that is highlighted here 
that would be in nonattainment is not only the economic center 
of the State of Georgia but the entire Southeast.
    So what is the cost that we could see in an area that is so 
important--you're talking about one of the largest airports in 
the nation. Atlanta Hartsfield Airport is in this area; one of 
the largest power plants in the Southeast is in this area. What 
type of economic impact or hidden cost would we expect to see 
with the implementation of this standard? Mr. Holmstead?
    The Hon. Holmstead. The only thing we know is--for sure is 
that the cost of everything will go up, right, because energy 
is embedded in everything we do. So you're going to be paying 
more for lots of different things.
    The thing that's really hard to judge--and people have said 
it's certainly true that we've had economic growth even with 
tighter standards, but that doesn't mean that this next 
increment isn't going to be enormously expensive. So maybe you 
can continue to have economic growth there, but it will be much 
less than it would otherwise be in part because you're making 
it very difficult for businesses to expand in that area. They 
just have nowhere to go.
    Mr. Loudermilk. Dr. Honeycutt, let me read a portion of 
this letter and maybe you can respond to the same question. Our 
Governor says, ``these rules are in addition to the fuel 
economy standards and the Tier 3 tailpipe emission standards 
for cars and trucks implemented by the federal level, which 
increases costs for businesses and consumers in my State and 
others.'' This is after he's gone through a litany of other EPA 
regulations that have affected our area. ``All of these 
regulations have required substantial investment on the part of 
Georgia companies and consumers and constitute a moving target 
for Georgia companies.'' The moving target is one of those 
areas that I hear a lot about with federal regulations, that 
they are unattainable. Could you and Mr. Sadredin comment on 
that?
    Mr. Honeycutt. Yes, sir. He's absolutely right. EPA needs 
to provide the States guidance as soon as they put a rule out, 
not years later as they have in the past, because their 
deadlines are flexible, ours are not.
    Mr. Loudermilk. Mr. Sadredin?
    Mr. Sadredin. You know, it was mentioned earlier that 
Congress was very clear about not including economic costs in 
certain standards. The fact of the matter is if you actually 
read the Supreme Court case, it said Congress failed to give 
any guidance on that. Therefore, absent guidance from Congress, 
judges, bureaucrats such as myself, and my colleagues at EPA 
have become policymakers and they have come up with a scenario 
where they say don't worry about the cost-effectiveness or 
economic feasibility when we set this standard. During the 
implementation, we'll take care of that. And unfortunately, the 
Clean Air Act, as written right now, does not give them the 
flexibility and the latitude that they need with those very 
fixed timelines, deadlines that you have to come into 
attainment to actually be able to do what they claim the Clean 
Air Act allows them to do to incorporate the economic 
feasibility during the implementation phase.
    Mr. Loudermilk. All right. Thank you.
    Mr. Chairman, I move to have both of these documents 
submitted to the official record.
    Mr. Weber. Without objection.
    [The information appears in Appendix II]
    Mr. Loudermilk. And I yield back.
    Mr. Weber. The gentleman yields back.
    Now, the gentleman from Colorado has five minutes to see if 
he can make Mr. Sadredin make the alarms go off.
    Mr. Perlmutter. Thank you, Mr. Chairman.
    Just a couple things I'd like to introduce into the record 
if I could. First is an article published in the Durango Herald 
supporting the decrease from 75 parts to 70 parts dated October 
5, 2015. If I could introduce that into the record, sir?
    Mr. Weber. Without objection.
    [The information appears in Appendix II]
    Mr. Perlmutter. The second thing is a little more 
cumbersome. That's just 1-1/2 pages. This is 1,251 pages, which 
is the compilation, Dr. Honeycutt, of all the studies, some 
2,300 undertaken to--and reviewed by the EPA in preparation for 
the reduction in the use of ozone numbers. And so I'd like to 
introduce the 1,251 pages, which compiles the 2,300 studies for 
the record.
    Mr. Weber. I will allow that if you'll start reading them. 
Without objection.
    [The information appears in Appendix II]
    Mr. Perlmutter. Well, I will--okay. So Martin, R.V.; Fiore, 
A.M.; Van Donkelaar, space diagnosed--diagnosis of surface 
ozone sensitivity to anthropogenic emissions.
    Mr. Weber. They will be admitted, Mr. Perlmutter.
    Mr. Perlmutter. All right. I guess--and then I'm going to 
yield to Mr. Beyer.
    And I just say to the folks on the panel, you know, in the 
Denver area we've had ozone issues for years and years and 
years, and our State prides itself on being very outdoorsy, you 
know, wanting to get outside, take advantage of, you know, the 
beautiful climate that we have. But our air is always something 
that has been difficult and because we do have some of the 
things that you mentioned in your testimony. You know, we're in 
a pocket where the weather, you know, creates inversions and 
things like that.
    But each year and each time industry complains that this is 
going to be unattainable, we can't do it, but then over a 
course of time, they do. And it's improved the health of 
Coloradans. And we've got to continue to improve that. Our 
State has continued to grow, and we have a substantial oil and 
gas industry. And so as hard as these things are, the economy 
of Colorado has flourished because people want to come there 
for a great environment. And part of that is cleaning up our 
air as best we can from time to time.
    And so I appreciate the testimony of everybody. I 
understand this is hard and it can be expensive, but the 
rewards are substantial as well, and that's not been so clear 
today. But in Colorado we've experienced that success and we've 
experienced that growth, and the health of the population has 
been improved, I think, over the years, you know, from growing 
up as a kid and having the brown cloud. It's improved a lot.
    And I yield to my friend from Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, my good friend, distinguished 
colleague from Colorado.
    I was confused by Dr. Honeycutt's comment on Houston and 
Detroit. The excellent Democratic staff at the Science 
Committee dug out a Texas Tribune article that says that 
``paradoxically, lowering levels of nitrogen oxygen--nitrogen 
oxide (a pollutant that contributes to forming ozone) can 
temporarily increase ozone levels because NOx also helps 
dissipate fully formed ozone. That's why EPA predicts a slight 
increase in premature deaths if ozone standards are lowered.''
    But, Dr. Craft, can you please elaborate on this 
phenomenon? Is this a reason to not implement these new lower 
standards?
    Dr. Craft. No, it's not. It's actually a simulation that's 
done, and that simulation was done looking specifically at NOx 
reductions. It did not include reducing some of the other 
precursors that form ozone, including VOCs. And so when a 
region has to put together a plan to reduce ozone, what they do 
is they identify an optimized plan to reduce both NOx and VOCs. 
And so the idea of NOx scavenging can be addressed through the 
way that you implement the new standard.
    Mr. Beyer. That's great. And one more quick thought. There 
are 25 seconds. They talk about how, gosh, even the national 
parks can't get to these ozone standards because of background 
ozone levels. How high are background ozone levels? Is Dr. 
McCabe's comment that the EPA will work around that? And does 
the ozone in the parks come from the parks or as it blown in 
from somewhere else?
    Dr. Craft. Well, there aren't a lot of power plants or a 
ton of mobile sources in the national parks. Most of that is 
actually coming from sources that are downwind of those 
national parks. And so addressing those sources will help the 
areas where we have national parks that are having an 
occasional exceedance back into attainment.
    Mr. Beyer. Thank you very much, Mr. Chairman.
    Mr. Weber. Dr. Honeycutt, you've been mentioned a couple of 
times now. In the 1,200 page study that Congressman Perlmutter 
refused to read and here with the article in the Texas Tribune, 
would you like to take time to respond?
    Mr. Honeycutt. Sure. Thank you. Yes, I've actually read the 
human health portions of that document. I didn't read the 
atmospheric chemistry portions or the welfare portions, but I 
did read the human health portions.
    Yes, as far as the NOx disbenefit, it--if you believe that 
ozone causes premature mortality, which EPA does, then you have 
to accept the disbenefit along with the benefit, because if you 
believe ozone causes premature mortality, then you will see it 
if you lower NOx in--around highways. So there's no getting 
around it. There's no doubling down to hurry up and get the 
emissions because you'll just hasten the deaths then.
    So--and as far as asthma again, the question is not does 
ozone exacerbate asthma? The question is, will lowering the 
standard from 75 down to 70 or even 60 reduce the number of 
asthma exacerbations? And according to EPA, the answer is no.
    Mr. Weber. Okay. Thank you.
    And the Chair now recognizes the gentleman from Illinois, 
Mr. LaHood.
    Mr. LaHood. Thank you, Mr. Chairman, and thank the 
panelists here today.
    I guess in looking at my home State of Illinois and looking 
at the impact that this proposed rule would have on jobs and 
economic growth, I have real concerns about that. And I want to 
cite a recent analysis and study done by NERA Economic 
Consulting that is titled ``What Could New Ozone Regulations 
Cost Illinois?'' And this is dated August of 2015. In looking 
at the proposed rule and the effect it would have on Illinois 
specifically, $47 billion in gross state product loss between 
2017 and 2040, 35,000 lost jobs or job equivalents per year, 
$12 billion in total compliance costs, $650 drop in average 
household consumption per year, $1 billion more for residents 
to own/operate their vehicles statewide in this period. And I 
will submit this for the record.
    [The information appears in Appendix II]
    Mr. LaHood. And I guess looking at that and a number of 
other studies that look at what this would do, what causes 
concern for me as I look at companies, particularly in my 
district in central and west central Illinois, Caterpillar is 
based in my district, a Fortune 40 company, very benevolent, 
generous company, but also has been very proactive in the 
environmental movement and what they've done at their 
companies, a company like John Deere, ADM that's in my 
district. And I look at how they are trying to compete 
worldwide in the marketplace, and they are trying to obviously 
create jobs and opportunities, and when I look at this proposed 
rule, what that would do locally to those companies.
    And I guess I couple that with when you look at the 
statistics, air quality in American cities is the best that 
it's been in a century. Ozone pollution has declined 33 percent 
since 1980, nine percent since 2008. And so when I look at 
those companies and what they're trying to do proactively and 
then they have to look at this coming down on top of them, I 
guess, Mr. Holmstead, in looking at that, competing in the 
world marketplace and whether you're going to create jobs in 
Illinois or you're going to go to India or China or someplace 
else, can you talk about that a little bit?
    The Hon. Holmstead. There's one observation I like to make. 
Certainly, you know, California has done very well economically 
over the last number of years. There was a time when we used to 
manufacture things in California. We don't do that anymore; 
it's just too expensive because heavy manufacturing requires 
energy. And so that's been to the benefit of other States.
    We're getting to the point now where if we turn the rest of 
the country into California, we will have no choice but to 
export those jobs. And it's not because companies are bad 
citizens, but if they compete economically with everybody else 
on the globe and all of a sudden you drive up their costs too 
much, the same thing that happened to southern California is 
going to happen to central Illinois.
    And I just think that we--we just need to be smart in how 
we continue to make environmental progress. That's my--we can 
continue to make progress but we can do it in a way that's much 
more reasonable, that is not going to disadvantage U.S. 
businesses and consumers.
    Mr. LaHood. And would it be fair to say, Mr. Holmstead, 
there's a direct correlation between what this rule is going to 
do and job loss or economic loss with companies like I 
mentioned and others?
    The Hon. Holmstead. There is no doubt that this will hurt 
the rate of economic growth. I think it's hard to know--and I 
have a great respect for NERA. I think that study looked at 
even a lower standard, and so that probably overstates the 
cost. But there's no doubt that it will impose additional costs 
on businesses. It will make it harder for them to grow and 
expand, and ultimately, you're going to drive people out of 
these areas and they're going to have no choice but to go 
somewhere else.
    Mr. LaHood. Thank you.
    Dr. Honeycutt, I wanted to ask you, so in terms of the 
effect this will have on state and local resources, you know, 
when these EPA--if this rule is implemented, in terms of 
agencies catching up on implementing the current standard when 
they're already working on a standard now, can you talk a 
little bit about that?
    Mr. Honeycutt. Sure. It is substantial. It costs TCEQ--
we've put money to the numbers--$1 million to do a SIP for a 
moderate area. And so that's just the SIP. That's not even 
looking at the exceptional events, the long-range transport and 
things. Those are hundreds of thousands of dollars. So--and 
that's tax money. So, yes, it's substantial.
    Mr. LaHood. Thank you. Mr. Chairman, if I could, I'd like 
to submit this study I just referenced and also a letter from 
the Tri-County Regional Planning Commission in Peoria, 
Illinois, asking for a delay in the attainment designation.
    Approved without objection, thank you.
    [The information appears in Appendix II]
    Mr. Palmer. [Presiding] I will assume the Chair for the 
time being and begin my questions.
    And my first question is to Dr. Honeycutt. The EPA admits 
that much of the control technology to comply with these new 
standards does not yet exist. I think the latest estimate is 
only about 40 percent of the emission reductions can be 
attained with the current control technology. Can you give me 
some idea how Texas plans to comply with this if we're dealing 
with--basically with a black box?
    Mr. Honeycutt. I wish we knew. Most of these sources out 
there are vehicle emissions or non-road emissions, so we're 
going to do something with those and we're really not quite 
sure what yet. This is unchartered territory for not only Texas 
but for most of the country.
    Mr. Palmer. Well, I think the answer is going to be that 
you will shut down whatever industry is producing these ozone 
emissions that prevent you from meeting these reduction 
standards. So if you don't have the control technology to 
install, and earlier in my career, I worked for Combustion 
Engineering in the Environmental Systems Division so I have a 
pretty good idea of what it costs to design, build, and install 
this equipment. You can't design, build, and install stuff that 
doesn't yet exist, so the only option is to shut down 
whatever's producing the emission. So would you concur with 
that?
    Mr. Honeycutt. I think at this point in time everything is 
on the table.
    Mr. Palmer. Okay. In regard to these issues of air quality, 
and I pointed out in this hearing before that since 1980 our 
GDP has gone up 467 percent, vehicle miles have gone up 94 
percent, population has increased 38 percent, energy output has 
gone up 32 percent, yet emissions have gone down 50 percent. 
The air is demonstrably cleaner than it has ever been. Our 
economy is continuing to grow. I think when we talk about the 
balance between health and economic growth, one of the 
interesting things--and asthma has been mentioned several times 
here--is that there's peer-review studies out from the medical 
community, including UCLA, that indicate that even though air 
quality is dramatically improved, asthma rates have spiked. And 
particularly in California, the UCLA study, Mr. Sadredin, that 
the single biggest predictor is low income.
    [The information appears in Appendix II]
    Mr. Sadredin. Mr. Chairman, people often mistake the impact 
of air pollution on asthma claiming that air pollution actually 
causes asthma. That is a scientifically--there's little 
evidence of that in science. We're talking about exacerbation, 
and if you look at cases of asthma in some of the more pristine 
areas on the coast in California, asthma rates are going up 
much--at a much higher rate compared to Los Angeles and Central 
Valley where our pollution is higher. So the relationship is 
not there but it's something that tugs at your heart when you 
talk about children with asthma, and that's a good bumper 
sticker sort of a justification for the enormity of the Clean 
Air Act that we're talking about.
    In San Joaquin Valley we have reduced pollution by over 80 
percent over the last 20 years. We've imposed the toughest 
regulations you can imagine on farming operations, agriculture, 
dairies. Unfortunately, some of my colleagues from, you know, 
urban areas, they think food just shows up on the grocery shelf 
somehow magically. They don't really understand all the work 
that has to go into producing it.
    We're at the point in our region with double-digit 
unemployment and low level of education with a large portion of 
our Hispanic population. It is very difficult to envision a 
scenario where we can meet those new standards without having 
to actually shut down businesses, as you mentioned. And that's 
the point I wanted to get into.
    Congressman Lofgren introduced a letter from Central Valley 
Air Quality Coalition earlier saying that everybody's okay in 
California with this. This same group had actually recommended 
to our agency that we have no-farm days, no-construction days, 
no-drive days. And we're not talking about a day or two here 
and there. We're talking about 100 days a year during summer 
having no commercial activity. They thought that's something 
that's reasonable.
    Mr. Palmer. Dr. Honeycutt, if you'd like to respond in the 
time that I have remaining, but I would like to--the NERA study 
was mentioned earlier. Those numbers have been adjusted to 
reflect the new standard that the EPA is requiring, and it is a 
devastating impact on the economy if you'd like to respond.
    Mr. Honeycutt. Sure, just real quickly. As far as asthma 
causation, Gina McCarthy testified in July of this year in 
front of this committee that ozone does not cause asthma, as 
did a minority witness earlier. However, EPA says that it is 
likely causal, that ozone likely does cause asthma, which is 
the same designation they give to premature mortality--total 
premature mortality and which the benefits are based on. So 
that's why there's some confusion in this because EPA says one 
thing and Gina McCarthy said another thing.
    Mr. Palmer. Thank you. My time is expired.
    I would now like to recognize the gentleman from Arkansas, 
Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman.
    Let's see. Dr. Craft, you work for an organization that's 
very concerned about protecting the environment, making sure we 
have clean air quality. And is--on the concept of diminishing 
returns, do you think we'll ever get to a point where we are 
trying to achieve something that the cost to achieve it is more 
than it's worth achieving, or should we just make improving air 
quality the ultimate goal at any cost?
    Dr. Craft. Well, Environmental Defense Fund uses market-
based principles as a foundation for our work. So we've worked 
successfully with oil and gas industry, for example, to 
implement control technologies on equipment that saves money 
and also reduces the amount of pollution in the air.
    Getting to the question of diminishing returns, I don't 
think we're anywhere near where we need to be in terms of 
reducing the amount of pollution. The question of, you know, 
how could--how is Texas going to comply, well, you know, we 
have VOC emissions in Houston that, through studies funded by 
TCEQ, show that those emissions are underestimated by a factor 
of five to ten. So looking at reduction of upset events, 
looking at one million----
    Mr. Westerman. I need to--I'm from Arkansas. I'm not from 
Texas so I need to move on here.
    It says here in your testimony that to reduce harmful air 
pollution such as ozone from pollution hotspot areas--have you 
ever been to Arkansas?
    Dr. Craft. Yes, I have. We work closely with Walmart, and 
so we have an office in Bentonville. I've been there several 
times.
    Mr. Westerman. Okay. So I was there last week in my 
district, which happens to have about 18,000 square miles of 
forest. To put that in perspective, just the forests in my 
district are about 264 times larger than Washington DC. And I 
like to get out in my district in the forest and breathe the 
fresh air. Actually, I think the air quality is much better 
there than it is here, but if you look at the ozone monitors, 
it's really not that much different than the air quality here 
in Washington DC. And actually, if you look at some of the 
information from the EPA, it talks about trees creating a lot 
of ozone through their VOC emissions. So, you know, if--should 
we go cut down all the trees in my district so we can improve 
air quality?
    Dr. Craft. Well, actually, it's funny that you mention 
that. We are actually looking into trees as an intervention 
strategy for places like Houston. So there is evidence that 
some species of trees release VOCs, but not all species.
    Mr. Westerman. So maybe we should just plant plantations of 
monocrops in Houston to fix the air quality down there. I'm 
trained in forestry, so that would be kind of interesting if we 
started doing stuff like that.
    Moving along, Mr. Holmstead, are you familiar with EPA's 
claim that the proposed ozone standard will only impact nine 
counties?
    The Hon. Holmstead. Yes, that's just silly. They, first of 
all, assume all kinds of things and run their models and say, 
look, there's only going to be nine counties that don't attain 
the standard. The problem--that's not the way the Clean Air Act 
works. It's not only counties where there might be a monitor; 
it's everywhere elsewhere EPA predicts using models that you're 
going to have an area that violates the standard. So that 
actually really makes me angry. EPA should be at least honest 
about the implications of this because it's going to affect 
many, many more parts of the country.
    Mr. Westerman. So it's a very dishonest of them not to 
include non-monitored counties because we know the air mixes 
and you got these autogenic effects.
    What about using the year 2025? Is that dishonest as well?
    The Hon. Holmstead. Well, yes, because all of these 
regulatory consequences happen now. The permitting problems 
happen now. All the other regulations happen now. If the Clean 
Air Act said, great, if EPA says that everyone is going to come 
into attainment within ten years, if that's the way it worked, 
that would be great. But we don't wait around. You impose all 
these obligations now regardless of what EPA projects for 2025.
    Mr. Westerman. And so can you explain quickly the actual 
impact of the ozone rule for those of us not inclined to use 
EPA's fuzzy math or their fuzzy logic or whatever it is they 
use? Maybe we need to pump some of the clean air from Arkansas 
over into the EPA building.
    The Hon. Holmstead. Just very quickly, it will be very hard 
to expand new businesses in many rural parts of the country. 
That's the most kind of--the thing people don't understand. 
This is--what this affects is--rural parts of the country would 
like to attract new business. That is going to be difficult or 
impossible.
    And then in other areas you just drive up the costs even 
more, and you do so unnecessarily. There's just a better way to 
clean the air, but unfortunately, we've become so dug into this 
statute that was created 45 years ago that just doesn't really 
work anymore for the way that the world works today.
    Mr. Westerman. You can just cut down all the trees in my 
district and we could meet the air quality.
    The Hon. Holmstead. Well, at some point afterwards I'll 
tell you a story about VOC emissions and trees. It's actually 
kind of sad to see what EPA has done in the past about that 
issue. But we don't have time to talk about it here.
    Mr. Westerman. Thank you, Mr. Chairman.
    Mr. Palmer. The gentleman's time has expired, but I do want 
to comment on the gentleman's line of questions and the 
responses that apparently the EPA has now gotten in the 
business of determining that there are some good trees and some 
bad trees and maybe the solution is just clear-cutting. I hope 
not.
    The Chair now recognizes Dr. Abraham, the gentleman from 
Louisiana.
    Mr. Abraham. Thank you, Mr. Chairman.
    And I'm going to just hit this from a medical perspective. 
The tone and the verbiage from EPA has changed over the past 
several months to this theme of childhood asthma. Gina McCarthy 
touted, everybody in the EPA touted, and this is what they're 
trying to sell, that the ozone is causing this exacerbation. 
Again, I am limited in my practice as to--I have to do what we 
call standard of care, and we have to do things based on only 
evidence-based scientific data. And I usually go to the CDC for 
my talking points and when I'm trying to determine what's best 
for my clientele.
    I've practiced medicine all my life and I've practiced it 
in places all over the world, and I look at CDC charts and maps 
and I see where there are the lowest emissions standards 
there's the highest asthma. And, Gary, it goes back to your 
statement of socioeconomic factors being the major cause of 
exacerbation of asthma, and I can tell you from a 
practitioner's point, that's very true.
    I look at some of these other studies from these 
nonprofits, and the first thing that we as physicians and any 
scientist is taught is to look at who's funding the study 
because of the conflict-of-interest possibility. Where are you 
getting your money? And, Dr. Craft, when the Congresswoman 
asked you a question about ozone and the possible developmental 
lung function, I noticed that you didn't use the word ozone. 
You admittedly shifted to air pollutants to answer that 
question.
    So, Dr. Honeycutt, I will start with you. I am concerned 
that we are seeing a lot of bias and conflict of interest in 
this--in our Scientific Advisory Board, especially the Clean 
Act Scientific Board. What can we do to combat that? How can we 
tell our constituents and our patients that what we are being 
told by EPA, by everyone, are actually based on facts and just 
not theory and not being pushed by specific interest groups 
that want to sell a product?
    Mr. Honeycutt. By the way, I was born and raised in your 
district and you represent my parents so----
    Mr. Abraham. Hey, I didn't know that.
    Mr. Honeycutt. The CASAC is appointed by EPA. Whenever we 
do a board like that, we have an external party to vet people 
and pick them for us. And the panels need to be balanced and--
as far as----
    Mr. Abraham. Are they now balanced in your opinion?
    Mr. Honeycutt. No, actually not.
    Mr. Abraham. Nor in mine. I will agree with your statement. 
Go ahead. I'm sorry.
    Mr. Honeycutt. Oh, they need to be balanced in terms of 
bias and who they represent, and right now they're not.
    Mr. Abraham. Okay. And I think you've answered the question 
but I'll ask you to answer it again. Will lowering the ozone 
standards from 70 to 60 do anything for asthma?
    Mr. Honeycutt. According to the EPA, no.
    Mr. Abraham. Yes, and I've seen those studies, too. And is 
there any evidence--and any panel member can answer this--that 
ozone--specifically ozone exacerbates asthma? Dr. Craft?
    Dr. Craft. Yes, I'd like to comment and I guess give the 
reason for why I didn't mention ozone specifically with the 
Gauderman study. Ozone actually didn't decline that much over 
the time period that the Gauderman study focused on, so that's 
why I discussed air pollution in general.
    Mr. Abraham. But----
    Dr. Craft. To get to your question about----
    Mr. Abraham. But you understand, Dr. Craft, that was not 
the question she asked. I was just referencing the question, 
the specific question, and I was just looking for a specific 
answer. And I just didn't see that, and that's the reason I 
brought that up.
    Dr. Craft. Right. So to give an example of a study that you 
requested, I'll refer to, again, the testimony of Dr. 
Wellenius, who mentioned a 2010 study by scientists at Emory 
and Georgia Tech looking at a 30 percent increase----
    Mr. Abraham. And may I ask who financed that study? Do you 
know who financed that study?
    Dr. Craft. I'm not sure who financed that study.
    Mr. Abraham. Okay. And see, that's I guess my point. We--
like the gentleman from Colorado, he had a 2,200 page study, 
and there are millions of studies, but I want to know who's got 
skin in the game as to how the study is going to be presented. 
So that's all I'll say. I'm out of time and I appreciate the 
panel being here.
    Mr. Chairman, I'll yield back.
    Mr. Palmer. Thank you, Dr. Abraham.
    I thank the witnesses for their testimony and the Members 
for their questions. The record will remain open for two weeks 
for additional written comments and written questions from 
Members. This hearing is adjourned.
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
